No. _______
IN THE

Supreme Court of the United States
_________
XITRONIX CORPORATION,
Petitioner,
v.
KLA-TENCOR CORPORATION, DBA KLA-TENCOR, INC.,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
MICHAEL S. TRUESDALE
ENOCH KEVER PLLC
5918 W. Courtyard Dr.,
Suite 500
Austin, TX 78730

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

i
QUESTION PRESENTED
In Walker Process Equipment, Inc. v. Food
Machinery & Chemical Corp., 382 U.S. 172 (1965), this
Court held that “the enforcement of a patent procured
by fraud on the Patent Office may be violative of § 2 of
the Sherman Act provided the other elements
necessary to a § 2 case are present.” Id. at 174.
Petitioner filed a Walker Process suit against
Respondent, alleging that Respondent violated the
antitrust laws by fraudulently obtaining a patent.
After the District Court granted summary judgment to
Respondent, Petitioner appealed. The Federal Circuit
ruled that it lacked jurisdiction over the appeal, and
transferred it to the Fifth Circuit. The Fifth Circuit
then ruled that the Federal Circuit had exclusive
jurisdiction over the appeal, and transferred it back to
the Federal Circuit. The Federal Circuit then affirmed
the District Court’s summary judgment decision,
despite its own precedent holding that it lacked
jurisdiction.
The question presented is:
Does appellate jurisdiction over Walker Process
claims lie in the regional circuits, or in the Federal
Circuit?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner,
Xitronix
Corporation,
has
no
outstanding shares or debt securities in the hands of
the public, and it does not have a parent company. No
publicly held company has a 10% or greater ownership
interest in Petitioner.

iii
STATEMENT OF RELATED CASES
This petition seeks review of a final judgment by
the Federal Circuit. It is related to a petition currently
pending before this Court, which seeks review of the
Fifth Circuit’s judgment transferring this case to the
Federal Circuit. See Petition for Certiorari, Xitronix
Corp. v. KLA-Tencor Corp., No. 18-1170 (U.S. filed
Mar. 8, 2019) (seeking review of Fifth Circuit’s decision
in Xitronix Corp. v. KLA-Tencor Corp., No. 18-50114).

iv
TABLE OF CONTENTS
QUESTION PRESENTED .............................................. i
CORPORATE DISCLOSURE STATEMENT ............ ii
STATEMENT OF RELATED CASES ....................... iii
TABLE OF AUTHORITIES ......................................... vi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ......................................................... 1
JURISDICTION ................................................................ 1
STATUTORY PROVISION INVOLVED .................... 1
INTRODUCTION ............................................................. 2
STATEMENT OF THE CASE ....................................... 5
REASONS FOR GRANTING THE WRIT ................ 13
I.

THE
CIRCUIT
SPLIT
IS
UNTENABLE. .................................................... 13
A.

The Court Should Resolve the
Circuit Split Between the Fifth
Circuit and the Federal Circuit. ............. 13

B.

There Is Widespread Confusion On
An Issue of National Importance. .......... 19

v
II.

THE FIFTH CIRCUIT, NOT THE
FEDERAL
CIRCUIT,
HAS
JURISDICTION. ................................................. 24

CONCLUSION ................................................................ 30
Appendix A
Xitronix Corp. v. KLA-Tencor Corp., 767 F.
App’x 1008 (Fed. Cir. 2019) ....................................... 1a
Appendix B
Xitronix Corp. v. KLA-Tencor Corp., 757 F.
App’x 1008 (Fed. Cir. 2019) ....................................... 3a
Appendix C
Xitronix Corp. v. KLA-Tencor Corp., 916
F.3d 429 (5th Cir. 2019).............................................. 8a
Appendix D
Xitronix Corp. v. KLA-Tencor Corp., 882
F.3d 1075 (Fed. Cir. 2018) ....................................... 38a
Appendix E
Xitronix Corp. v. KLA-Tencor Corp., 892
F.3d 1194 (Fed. Cir. 2018) ....................................... 50a
Appendix F
Xitronix Corp. v. KLA-Tencor Corp., Cause
No.: A–14–CA–01113–SS, 2016 WL 7626575
(W.D. Tex. Aug. 26, 2016) ........................................ 70a

vi
TABLE OF AUTHORITIES
CASES
Christianson v. Colt Industries Operating
Corp., 486 U.S. 800 (1988) .............................passim
Grable & Sons Metal Products, Inc. v. Darue
Engineering & Manufacturing, 545 U.S.
308 (2005) ................................................................ 29
Gunn
v.
Minton,
568
U.S.
251
(2013) ................................................... 6, 7, 12, 15, 29
Illinois Tool Works, Inc. v. Independent Ink,
Inc., 547 U.S. 28 (2016) .......................................... 26
In re Lipitor Antitrust Litigation, 855 F.3d
126 (3d Cir. 2017) ................................. 10, 19, 20, 22
MDS (Canada) Inc. v. Rad Source
Technologies, Inc., 720 F.3d 833 (11th Cir.
2013) ............................................................. 10, 21, 22
Nobelpharma AB v. Implant Innovations,
Inc., 141 F.3d 1059 (Fed. Cir. 1998) ...................... 6
Parker Drilling Management Services, Ltd. v.
Newton, 139 S. Ct. 914 (2019) ............................... 14
Perry v. Merit Systems Protection Board, 137
S. Ct. 1975 (2017).................................................... 23
Seed Co. Ltd. v. Westerman, 832 F.3d 325
(D.C. Cir. 2016) ................................................. 10, 20
Walker Process Equipment, Inc. v. Food
Machinery & Chemical Corp., 382 U.S.
172 (1965) .......................................... 2, 24, 25, 26, 27

vii
STATUTES
28 U.S.C. § 1254(1) ......................................................... 1
28 U.S.C. § 1295 ........................................................... 15
28 U.S.C. § 1295(a)(1) ................................................ 1, 2
28 U.S.C. § 1331 ..................................................... 15, 29
28 U.S.C. § 1338 ........................................................... 15

1
PETITION FOR WRIT OF CERTIORARI
Xitronix Corporation petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Federal Circuit.
OPINIONS BELOW
The decision of the Federal Circuit affirming the
District Court (Pet. App. 1a-2a) is reported at 767 F.
App’x 1008. The decision of the Federal Circuit
accepting jurisdiction over this case (Pet. App. 3a-7a) is
reported at 757 F. App’x 1008. The decision of the
Fifth Circuit (Pet. App. 8a-37a) transferring this case
to the Federal Circuit is reported at 916 F.3d 429. The
decision of the Federal Circuit (Pet. App. 38a-49a)
transferring this case to the Fifth Circuit is reported at
882 F.3d 1075. The opinion dissenting from the Federal
Circuit’s denial of rehearing en banc (Pet. App. 50a-69a)
is reported at 892 F.3d 1194. The summary judgment
decision of the Western District of Texas (Pet. App.
70a-93a) is reported at 2016 WL 7626575.
JURISDICTION
The judgment of the Federal Circuit was entered on
May 23, 2019. This Court has jurisdiction pursuant to
28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
28 U.S.C. § 1295(a)(1) provides:
(a) The United States Court of Appeals for the
Federal
Circuit
shall
have
exclusive
jurisdiction—
(1) of an appeal from a final decision of a district

2
court of the United States, the District Court of
Guam, the District Court of the Virgin Islands,
or the District Court of the Northern Mariana
Islands, in any civil action arising under, or in
any civil action in which a party has asserted a
compulsory counterclaim arising under, any Act
of Congress relating to patents or plant variety
protection.
INTRODUCTION
This case presents the ultimate circuit split: A split
between two circuits deciding the same question in the
same case.
Petitioner Xitronix Corporation sued Respondent
KLA-Tencor Corporation, alleging that KLA-Tencor
violated federal antitrust law by fraudulently obtaining
a patent. See Walker Process Equip., Inc. v. Food
Machinery & Chem. Corp., 382 U.S. 172, 174 (1965)
(“[T]he enforcement of a patent procured by fraud on
the Patent Office may be violative of § 2 of the Sherman
Act provided the other elements necessary to a § 2 case
are present.”). The District Court granted summary
judgment to KLA-Tencor.
Xitronix initially appealed to the Federal Circuit.
The Federal Circuit transferred the case to the Fifth
Circuit. It held, in a published, precedential decision,
that the Federal Circuit lacked jurisdiction over the
appeal because the suit was not a “civil action arising
under … any Act of Congress related to patents.” 28
U.S.C. § 1295(a)(1).
The Fifth Circuit then transferred the case back to
the Federal Circuit. Expressly disagreeing with the

3
Federal Circuit, it held, in a published, precedential
decision, that the Federal Circuit had exclusive
jurisdiction over the appeal because the suit was a
“civil action arising under … any Act of Congress
related to patents” under § 1295(a)(1). Xitronix filed a
petition for certiorari challenging that decision, which
is currently pending before this Court. Petition for
Certiorari, Xitronix Corp. v. KLA-Tencor Corp., No.
18-1170 (U.S. filed Mar. 8, 2019).1
After Xitronix filed its petition, the Federal Circuit
agreed to exercise jurisdiction over the appeal—but not
because it agreed with the Fifth Circuit. To the
contrary, the Federal Circuit stated that the Fifth
Circuit’s analysis of Supreme Court precedent was
“incorrect[]” and “untenable.” Pet. App. 4a. But the
Federal Circuit concluded that the Fifth Circuit’s order
met the minimal threshold of being “plausible” and
therefore should be accepted as law of the case. Pet.
App. 7a. It then affirmed the District Court’s grant of
summary
judgment—notwithstanding
its
own
precedential decision establishing that it lacked
jurisdiction to do so.
There is now binding precedent in both circuits
holding that this appeal must be transferred to the
other circuit. Worse yet, the Federal and Fifth
Circuit’s opinions are written broadly enough such that
1 For the Court’s convenience, Xitronix is submitting this petition

as a separate, stand-alone document, with a full recitation of the
procedural history and the arguments for certiorari. As such,
portions of this petition are repetitive of Xitronix’s prior petition.

4
each circuit will now require a large category of appeals
to be transferred to the other circuit. This situation is
untenable. This Court granted certiorari in a virtually
identical procedural posture in Christianson v. Colt
Industries Operating Corp., 486 U.S. 800 (1988)—there,
too, the Federal Circuit transferred an appeal to a
regional circuit, the regional circuit transferred it back,
and the Federal Circuit heard the appeal on the merits
despite disagreeing with the transfer decision. The
Court should grant certiorari in this case as well.
Even beyond the conflict between the Fifth Circuit
and Federal Circuit, there is broad confusion among the
circuits as to the scope of the Federal Circuit’s
exclusive jurisdiction. This confusion is harmful to the
administration of justice. Litigation over where to
litigate wastes the time of both litigants and courts,
especially where, as here, the outcome of the litigation
over where to litigate depends on where the issue is in
fact litigated.
Only this Court can resolve that
confusion and set a clear jurisdictional rule.
On the merits, this Court should hold that the
regional courts of appeals have jurisdiction over
appeals in Walker Process cases. Walker Process suits
arise under the antitrust laws, not the patent laws, and
any embedded issues of patent law in such cases do not
justify sending them to the Federal Circuit. The Fifth
Circuit’s proposed rule, which would require case-bycase assessments to determine which circuit has
jurisdiction, will yield nothing but uncertainty and
more circuit splits like this one.
Because the Federal Circuit lacked jurisdiction over
this appeal, its judgment should be reversed.

5
STATEMENT OF THE CASE
Petitioner Xitronix Corporation and Respondent
KLA-Tencor Corporation are competitors in the
“optical inspection” market. Pet. App. 9a. Optical
inspection technology is used for quality control in the
production of semiconductor wafers. Id.
Xitronix filed this Walker Process suit against
KLA-Tencor, alleging that KLA-Tencor committed an
antitrust violation by, inter alia, fraudulently obtaining
U.S. Patent No. 8,817,260. Pet. App. 11a-12a. The ’260
patent is a continuation of an earlier patent, which is in
turn a continuation of U.S. Patent No. 7,362,441. Pet.
App. 10a, 12a. In an earlier lawsuit between the
parties, a federal district court entered a final judgment
invalidating the claims of the ’441 patent. Pet. App.
10a-11a. In this Walker Process suit, Xitronix alleges
that instead of appealing that judgment, KLA-Tencor
prosecuted and eventually obtained, in the ’260 patent,
claims that were either identical to, or broader than,
the invalidated claims of the ’441 patent. Pet. App. 74a75a.
Xitronix further alleges that KLA-Tencor
fraudulently obtained the ’260 patent via material false
statements and omissions, in violation of its duty of
candor before the Patent Office. Pet. App. 15a, 78a.
The District Court granted summary judgment to
KLA-Tencor, ruling that KLA-Tencor had made no
affirmative misrepresentations or deliberate omissions
to the Patent Office. Pet. App. 81a-91a. It further
ruled that even if KLA-Tencor did make
misrepresentations or omissions, they were not
material to the Patent Office’s decision to issue the
patent. Pet. App. 91a-92a.

6
Xitronix appealed the District Court’s ruling to the
Federal Circuit.
The Federal Circuit sought
supplemental briefing on whether the case should be
transferred to the Fifth Circuit. Initially, both parties
took the position that the Federal Circuit had
jurisdiction, in reliance on Federal Circuit case law
holding that the Federal Circuit had jurisdiction over
Walker Process appeals. See Letter from Counsel for
Xitronix Corp. at 3-4, Fed. Cir. Dkt. 49; Supp. Br. of
KLA-Tencor at 5, Fed. Cir. Dkt. 50; Nobelpharma AB
v. Implant Innovations, Inc., 141 F.3d 1059 (Fed. Cir.
1998).
In a published, precedential decision, however, the
Federal Circuit ruled that it lacked jurisdiction over
the appeal and transferred it to the Fifth Circuit. Pet.
App. 38a-49a. The Federal Circuit applied the test of
Gunn v. Minton, 568 U.S. 251 (2013). In Gunn, this
Court held that a legal malpractice claim arising out of
alleged errors in prosecuting a patent suit was properly
brought in state court, rather than federal court. The
Court held that the plaintiff’s claim did not “aris[e]
under the any Act of Congress relating to patents” for
purposes of federal subject-matter jurisdiction. Id. at
257 (citing 28 U.S.C. § 1338(a)). The Court explained
that the legal malpractice claim arose under state law,
not federal law, and did not fall within the “special and
small category of cases” in which federal courts should
exercise arising-under jurisdiction over state-law
claims. Id. at 258 (internal quotation marks omitted).
The Court acknowledged that the malpractice claim
contained an embedded, disputed question of patent
law—i.e., whether the client would have won the patent

7
suit if the attorney had made the right argument. Id. at
259.
Nonetheless, this Court concluded that the
embedded patent issue was not sufficiently important
“to the federal system as a whole,” and that sending the
case to state court would not unduly disrupt the
“balance of federal and state judicial responsibilities.”
Id. at 260-64 (internal quotation marks omitted).
The Federal Circuit held that “in light of the
Supreme Court’s guidance and rationale in Gunn,” the
Federal Circuit lacked jurisdiction. Pet. App. 43a. It
concluded that Xitronix’s suit arose under the Sherman
Act, not the Patent Act, and did not fall within the
narrow category of non-patent claims over which the
Federal Circuit nonetheless had appellate jurisdiction.
The court noted that Xitronix’s case hinged on the
allegation that KLA-Tencor made false statements to
the Patent Office, and “[t]here is nothing unique to
patent law about allegations of false statements.” Id.
The court acknowledged that there was an “underlying
patent issue in this case,” but nonetheless held that it
did not warrant the exercise of jurisdiction because
that issue was “only relevant to determine if KLA
intentionally made misrepresentations.” Pet. App. 44a.
The court recognized that prior Federal Circuit panels
had exercised jurisdiction over Walker Process claims
(which is why Xitronix originally took the position that
the Federal Circuit had jurisdiction), but it held that
“[t]o the extent our prior precedent could be
interpreted contrary to Gunn, the Supreme Court
rendered that interpretation invalid.” Pet. App. 47a.
The court also stated that “[d]ecisions from our sister
circuits confirm the correctness of our decision today.”

8
Id. It relied on cases from the Third, Fifth, Eleventh,
and D.C. Circuits, holding that the regional circuits
have jurisdiction over appeals in non-patent cases
raising embedded issues of patent law. Pet. App. 47a48a.
KLA-Tencor filed a petition for rehearing en banc.
Xitronix opposed the petition, accepting the Federal
Circuit’s analysis of its own jurisdiction over Walker
Process cases post-Gunn. The Federal Circuit denied
rehearing en banc by a 10-2 vote, over the dissents of
Judge Newman and Judge Lourie. Pet. App. 51a.
Judge Newman published an opinion dissenting from
denial of rehearing en banc. She emphasized “the
importance of this decision to the judicial structure of
patent adjudication, and the future of a nationally
consistent United States patent law.” Pet. App. 53a.
She expressed “concern for the conflicts and
uncertainties created by this unprecedented change in
jurisdiction ….” Pet. App. 54a. Judge Newman
concluded that Supreme Court and Federal Circuit
precedent supported the Federal Circuit’s exercise of
jurisdiction. Pet. App. 58a-65a. She also took the view
that the panel’s decision misconstrued opinions from
other regional circuits. Pet. App. 65a-68a.
Following the denial of rehearing en banc, the case
was transferred to the Fifth Circuit. In the Fifth
Circuit, the parties’ positions on the jurisdictional
question were consistent with the positions they had
taken at the rehearing stage in the Federal Circuit:
Xitronix argued that the Fifth Circuit had jurisdiction,
while KLA-Tencor argued that the Federal Circuit had
jurisdiction.

9
In a published, precedential decision, the Fifth
Circuit held that the Federal Circuit had exclusive
jurisdiction, and transferred the case back to the
Federal Circuit. Pet. App. 8a-37a. The Fifth Circuit
recognized that the Federal Circuit’s decision was the
law of the case. Thus, under Christianson v. Colt
Industries Operating Corp., 486 U.S. 800, 819 (1988),
the Fifth Circuit could not transfer the case back to the
Federal Circuit unless it found that the Federal
Circuit’s decision was not even “plausible.” Pet. App.
18a. Applying that standard, it found that the Federal
Circuit’s decision was implausible, thus requiring the
case to be transferred back. Id.
The Fifth Circuit relied on Christianson, a case that
had arisen in a similar procedural posture: the plaintiff
had filed an antitrust claim raising patent issues, the
Federal Circuit transferred the case to the Seventh
Circuit, and the Seventh Circuit transferred the case
back to the Federal Circuit. Pet. App. 19a, 21a. In
Christianson, this Court stated: “[A] claim supported
by alternative theories in the complaint may not form
the basis for § 1338(a) jurisdiction unless patent law is
essential to each of those theories.” 486 U.S. at 810. On
the facts of Christianson, this Court held that the
Seventh Circuit had jurisdiction because patent law
was not essential to the plaintiff’s antitrust theories.
Id. at 811-12.
The Fifth Circuit distinguished
Christianson, reasoning that patent law was essential
to Xitronix’s Walker Process claim, thus requiring the
case to be transferred back to the Federal Circuit. Pet.
App. 22a, 36a-37a. The Fifth Circuit held that Gunn
was irrelevant to the question before it because Gunn

10
concerned only the allocation of jurisdiction between
state courts and federal courts, and “Gunn gave no
indication that it meant to alter Christianson or the
allocation of cases among the circuit courts.” Pet. App.
24a.
The court then addressed the Federal Circuit’s
reasoning, holding that it “depended on several
premises that we find implausible.” Pet. App. 25a. The
Fifth Circuit disagreed with the Federal Circuit’s
assessment that the validity of the patent was not in
issue, holding that “if this litigation determines that
KLA defrauded the PTO in obtaining the ’260 patent,
collateral estoppel principles would furnish a
readymade inequitable conduct defense to any potential
infringer whom KLA might sue.” Pet. App. 26a. The
Fifth Circuit also concluded that the Federal Circuit
had misread its own pre-Gunn cases. Pet. App. 26a27a.
The Fifth Circuit distinguished cases from other
circuits that had exercised jurisdiction over non-patent
cases. It acknowledged that the Third Circuit resolved
a Walker Process appeal in In re Lipitor Antitrust
Litig., 855 F.3d 126 (3d Cir. 2017), but explained that
Lipitor “involved non-patent antitrust theories,” and
therefore was appropriately decided by the regional
circuit. Pet. App. 28a. It noted that Seed Co. Ltd. v.
Westerman, 832 F.3d 325 (D.C. Cir. 2016) addressed a
legal malpractice claim concerning the unsuccessful
prosecution of a patent, and was thus irrelevant to
jurisdiction over Walker Process appeals. Pet. App.
28a. It stated that MDS (Canada) Inc. v. Rad Source
Technologies, Inc., 720 F.3d 833 (11th Cir. 2013), a

11
breach of contract claim that turned on an infringement
issue, “provides perhaps the strongest support” for the
Federal Circuit’s transfer decision. Pet. App. 28a. But
it distinguished MDS on the ground that it involved an
expired rather than valid patent, and “did not address
whether the Walker Process element of fraud on the
PTO implicates federal patent law.” Pet. App. 29a-30a.
The Fifth Circuit concluded that even if Gunn’s test
applied, the appeal “presents a substantial question” of
patent law for purposes of that test because it had “the
potential to render [a] patent effectively unenforceable
and to declare the PTO proceeding tainted by
illegality.” Pet. App. 30a-31a. It further observed that
Xitronix’s suit “can be adjudicated only with reference
to patent law.” Pet. App. 31a. It again expressed
doubt that Gunn was relevant to the Federal Circuit’s
jurisdiction, offering textual and policy arguments why
Gunn’s standard should not govern the allocation of
cases among the circuits. Pet. App. 32a-37a.
The court concluded: “We undertake the preceding
analysis with respect for our judicial colleagues and
gratitude for the litigants’ patience over the long
pendency of this appeal. We nevertheless cannot
conclude that the Federal Circuit’s decision to transfer
this case to us was plausible, given the Supreme
Court’s and Congress’s decisions to the contrary.” Pet.
App. 37a. It therefore transferred the case back to the
Federal Circuit. Xitronix filed a petition for certiorari
challenging the Fifth Circuit’s transfer order, which
remains pending before this Court.
Petition for
Certiorari, Xitronix Corp. v. KLA-Tencor Corp., No.
18-1170 (U.S. filed Mar. 8, 2019).

12
After Xitronix filed its petition, the Federal Circuit
issued a non-precedential order accepting jurisdiction
over this appeal, finding that the Fifth Circuit’s
“ultimate conclusion that we have jurisdiction is not
‘implausible.’”
Pet. App. 4a.2
In reaching this
conclusion, the Federal Circuit made clear that it
disagreed with the Fifth Circuit’s reasoning. The
Federal Circuit found that the Fifth Circuit’s order
“incorrectly” applied the test of Christianson v. Colt
Industries Operating Corp., 486 U.S. 800 (1988). Pet.
App. 4a. The Federal Circuit also found the Fifth
Circuit’s analysis of Gunn v. Minton, 568 U.S. 251
(2013), to be “untenable.” Pet. App. 4a. And it found
that the Fifth Circuit “misreads our decision in
Nobelpharma AB v. Innovations, Inc., 141 F.3d 1059
(Fed. Cir. 1998).” Pet. App. 5a.
Nonetheless, the Federal Circuit found that
“[d]espite these and other flaws, the Transfer Order’s
conclusion that we have jurisdiction is not implausible.”
Pet. App. 6a. The Federal Circuit noted that “[t]he
Court’s decision in Gunn could be read to imply that
whether the patent question at issue is substantial depends on whether the patent is ‘live’ such that the
resolution of any question of patent law is not ‘merely
hypothetical.’” Pet. App. 6a. “Here, the underlying
patent has not expired, and the resolution of the fraud
question could affect its enforceability.” Pet. App. 6a.
2 Xitronix filed a supplemental brief in this Court addressing the

Federal Circuit’s transfer order. See Supplemental Brief of
Petitioner, Xitronix Corp. v. KLA-Tencor Corp., No. 18-1170 (U.S.
filed Mar. 21, 2019).

13
The Federal Circuit again went out of its way to say
that it disagreed with this theory: “While it is not
implausible to reach this conclusion, we reject the
theory that our jurisdiction turns on whether a patent
can still be asserted. Under this logic, cases involving
Walker Process claims based on expired patents would
go to the regional circuits while those with unexpired
patents would come to us, despite raising the same
legal questions.” Pet. App. 6a-7a. Nonetheless, it
found the theory plausible: “Nevertheless, the fact that
the underlying patent in this case has not expired and
the fact that any decision could have effects on
enforceability is a plausible reason for us to accept
jurisdiction.” Pet. App. 7a. Thus, it “accept[ed] the
transfer” and stated it would “resolve this case on the
merits.” Pet. App. 7a.
On May 23, 2019, the Federal Circuit affirmed the
District Court in an unpublished judgment that
contained no reasoning. Pet. App. 1a-2a.
REASONS FOR GRANTING THE WRIT
I.

THE CIRCUIT SPLIT IS UNTENABLE.
A.

The Court Should Resolve the Circuit
Split Between the Fifth Circuit and the
Federal Circuit.

To state the obvious, there is a circuit split between
the Fifth and Federal Circuits. The Federal Circuit
held that it lacked jurisdiction over this appeal, while
the Fifth Circuit held that the Federal Circuit had
exclusive jurisdiction over this appeal. The Federal
Circuit agreed to exercise jurisdiction—but continued
to stand by its precedential decision, which held that it

14
lacked jurisdiction. A split this clear—even with only
one appellate court on each side of the split—is,
standing alone, a sufficient basis for a grant of
certiorari. See, e.g., Parker Drilling Mgmt. Servs., Ltd.
v. Newton, 139 S. Ct. 914 (2019) (granting certiorari to
resolve split between Fifth and Ninth Circuits).
But this is no ordinary circuit split. There is now a
precedential Federal Circuit decision holding that this
case must be in the Fifth Circuit, and a precedential
Federal Circuit decision holding that this case must be
in the Federal Circuit. And not only this case: the
reasoning of the Fifth and Federal Circuits makes clear
that a broad category of cases will fall into the same
appellate limbo. The Federal Circuit’s opinion appears
to hold that all Walker Process appeals should proceed
in the regional circuits. The Fifth Circuit’s opinion is
broad as well. The Fifth Circuit distinguished Gunn on
the basis that this case involves a still-valid patent.
Pet. App. 29a. Thus, at a minimum, the Fifth Circuit’s
reasoning would require transferring all standalone
Walker Process claims involving still-valid patents to
the Federal Circuit. But the Fifth Circuit expressed
doubt that Gunn was relevant to appellate jurisdiction,
and appeared to endorse the rule that any “standalone
Walker Process claim” without alternative “non-patent
theories,” whether they involve a valid or an invalid
patent, belongs in the Federal Circuit. Pet. App. 36a37a. Under that rule, for all standalone Walker
Process claims brought in Texas, Louisiana, and
Mississippi, the Federal Circuit holds that the Fifth
Circuit has jurisdiction, and the Fifth Circuit holds that
the Federal Circuit has jurisdiction.

15
Moreover, the Fifth Circuit and Federal Circuit
disagree on the basic question of whether this Court’s
decision in Gunn is relevant to appellate jurisdiction.
In Gunn, this Court held that a state court had
jurisdiction over an attorney malpractice claim that
raised an embedded question of patent law. It held that
the malpractice claim did not “aris[e] under” federal
patent law, and therefore did not fall within federal
district courts’ exclusive jurisdiction under 28 U.S.C.
§ 1338. This Court applied the test traditionally used to
decide whether federal courts have arising-under
jurisdiction under 28 U.S.C. § 1331. 568 U.S. at 257. It
concluded that federal courts lacked jurisdiction
because the patent-law question was not “substantial,”
and was “capable” of being resolved in state court
“without disrupting the federal-state balance approved
by Congress.” Id. at 258.
The Federal Circuit held that Gunn’s analysis
applies to the appellate jurisdiction inquiry.
It
observed that the statutory language of 28 U.S.C.
§ 1338, which governs original jurisdiction over patent
cases, and 28 U.S.C. § 1295, which governs appellate
jurisdiction over patent cases, is “indistinguishable.”
Pet. App. 47a. By contrast, the Fifth Circuit found
“compelling reasons to think that [Gunn] did not”
change the “scope of the Federal Circuit’s jurisdiction.”
Pet. App. 32a. It observed that Gunn addressed the
jurisdiction of district courts, rather than of appellate
courts, and therefore “disagree[d] that the Supreme
Court inserted sub silentio such a nettlesome issue”
into the “allocation of cases between the circuit courts.”
Pet. App. 32a-33a.

16
Thus, the Federal Circuit thinks that Gunn
provides the test for appellate jurisdiction, while the
Fifth Circuit does not. As a result, in any non-patent
case raising an embedded patent-law question—
whether a Walker Process claim, or otherwise—the
Fifth Circuit and Federal Circuit disagree on what test
to apply to determine appellate jurisdiction.
This situation will create untenable practical
problems—which will not be resolved by the Federal
Circuit’s decision to exercise jurisdiction under protest.
Going forward, in all Walker Process cases from the
Federal Circuit, the filing of a notice of appeal will
inevitably lead to either one or multiple transfers. If an
appeal is filed in the Fifth Circuit, the court will be
bound by its precedential decision to transfer the
appeal to the Federal Circuit. Meanwhile, if an appeal
is filed in the Federal Circuit, the court will be bound
by its precedential decision to transfer the case to the
Fifth Circuit. The Fifth Circuit will be bound by its
precedential decision to hold that the transfer order is
so implausible that the case must be transferred back
to the Federal Circuit. Only then, assuming a future
Federal Circuit panel follows the panel’s unpublished
order here finding that the Fifth Circuit’s order is
“plausible,” can the case be decided. The result will be
ironic. In the interest of respecting the Federal
Circuit’s expertise over patent litigation, cases will be
transferred to the Federal Circuit—which, according to
the Federal Circuit’s own expert judgment, should not
be decided in the Federal Circuit.
And that is the best-case scenario. In this case, the
Federal Circuit panel issued a non-precedential

17
decision holding that it could disregard binding circuit
precedent and exercise jurisdiction over the appeal. If
a future Federal Circuit panel takes a different view
and deems the Fifth Circuit’s transfer order
“implausible” in view of Federal Circuit precedent, the
case will ping-pong between the circuits forever.
This Court has previously granted certiorari in
similar circumstances. In Christianson, a plaintiff filed
an antitrust claim that presented an embedded issue of
patent law.
After the plaintiff obtained a final
judgment in its favor, the defendant appealed to the
Federal Circuit. 486 U.S. at 806. The Federal Circuit
issued an unpublished order transferring the appeal to
the Seventh Circuit. Id. The Seventh Circuit, in a
published opinion, transferred the case back. Id. The
Federal Circuit then issued a published decision
holding that the Seventh Circuit had appellate
jurisdiction, but nonetheless decided the case in the
“interest of justice.” Id. at 807 (quotation marks
omitted). This Court granted certiorari to resolve the
“peculiar jurisdictional battle”: “Each court has
adamantly disavowed jurisdiction over this case. Each
has transferred the case to the other.” Id. at 803. The
Court ultimately concluded that the Seventh Circuit
had jurisdiction because the plaintiff’s complaint
included antitrust theories that did not require
adjudication of any patent questions: “The patent-law
issue, while arguably necessary to at least one theory
under each claim, is not necessary to the overall success
of either claim.” Id. at 810. This Court attempted to
ward off such “perpetual game[s] of jurisprudential
ping-pong” by holding that lower courts should

18
“adher[e] strictly to principles of law of the case”:
“Under law-of-the-case principles, if the transferee
court can find the transfer decision plausible, its
jurisdictional inquiry is at an end.” Id. at 818-19.
Unfortunately, in this case, that failsafe did not work:
the Fifth Circuit deemed the Federal Circuit’s decision
implausible, thus creating another circuit split. The
Federal Circuit then affirmed on the merits—while
making clear that it adhered to its prior precedential
decision. As a result, like in Christianson, there is a
square circuit split that only this Court can resolve.
One final word about the question presented. When
this case reached the Fifth Circuit, the Federal
Circuit’s decision was the law of the case. Thus, the
precise question resolved by the Fifth Circuit was
whether the Federal Circuit’s transfer decision was
implausible. Likewise, when the case was transferred
back to the Federal Circuit, the Federal Circuit decided
whether the Fifth Circuit’s transfer order was
implausible. But in this Court, the question presented
is not whether either court’s decision was implausible;
rather, the Court must decide the ultimate question of
which court has appellate jurisdiction. Christianson
makes clear that this is the proper inquiry. In
Christianson, this Court rejected the argument that it
should merely consider the plausibility of the laterdecided transfer decision.
As relevant here, it
observed that while one circuit must treat a sister
circuit’s decision as the law of the case, “law of the case
cannot bind this Court in reviewing decisions below.”
Id. at 817. To the contrary, “[a] petition for writ of
certiorari can expose the entire case to review.” Id.

19
Thus, this petition for certiorari exposes the entire case
to review. The Court need not decide whether one
decision or the other was “plausible”; instead, the Court
should simply decide the jurisdictional question without
putting a thumb on the scale.
B.

There Is Widespread Confusion On An
Issue of National Importance.

Even beyond the square split between the Fifth and
Federal Circuit, there is widespread national confusion
over the scope of the Federal Circuit’s jurisdiction in
non-patent cases presenting embedded issues of patent
law. The Fifth Circuit and Federal Circuit each cited
three post-Gunn appellate decisions from other
regional circuits. The Federal Circuit thought all three
cases “confirm the correctness” of its decision to
transfer the case to the Fifth Circuit, Pet. App. 47a,
while the Fifth Circuit cited all three cases in
transferring the case back. Pet. App. 27a-28a. The
only thing clear from these decisions is that litigants in
such cases will have no idea where to appeal.
In In re Lipitor Antitrust Litigation, 855 F.3d 126
(3d Cir. 2017), the Third Circuit held that it had
jurisdiction to hear an appeal in an antitrust case
raising patent-law issues. The plaintiff alleged that the
defendant had fraudulently procured a patent, had
engaged in other anticompetitive conduct related to the
patent system, and had engaged in certain other
anticompetitive acts. Id. at 145. The Third Circuit held
that whether the plaintiff’s patent theories were
sufficiently substantial to warrant transferring the case
to the Federal Circuit was “open to debate following
Gunn v. Minton.” Id. at 146. But the court held that it

20
“need not definitively address the substantiality of
plaintiffs’ [patent theories] in light of Gunn.” Id. It
explained that “even assuming that these theories do
present substantial questions of patent law,” “plaintiffs
could obtain relief on their section 2 monopolization
claims by prevailing on an alternative, non-patent-law
theory,” which implied that the antitrust case did not
“arise under” the patent laws. See id. The Federal
Circuit thought Lipitor supported transferring the
case, pointing to the Third Circuit’s observation that
whether Walker Process claims are “substantial” for
jurisdictional purposes is “open to debate following
Gunn v. Minton.” Pet. App. 48a (quoting Lipitor, 855
F.3d at 145-46). The Fifth Circuit cited Lipitor in
transferring the case back, observing that the “case
involved non-patent antitrust theories, … so the
Christianson rule clearly allocated it to the regional
circuit.” Pet. App. 28a.
In Seed Co. Ltd. v. Westerman, 832 F.3d 325 (D.C.
Cir. 2016), the D.C. Circuit exercised jurisdiction over a
legal malpractice claim concerning the unsuccessful
prosecution of a patent. Like the Federal Circuit, but
unlike the Fifth Circuit, the D.C. Circuit concluded that
Gunn’s standard governed appellate jurisdiction. Id. at
331. It reasoned that the case “involve[d] no forwardlooking questions about any patent’s validity, but
instead solely concern[ed] whether unsuccessful patent
applicants can recover against their attorneys.” Id.
The Federal Circuit stated that this reasoning
supported transferring the case to the Fifth Circuit.
Pet. App. 48a. The Fifth Circuit, by contrast, held that
Seed Co. “sheds no light on whether cases solely

21
alleging fraud on the PTO no longer belong in the
Federal Circuit.” Pet. App. 28a.
In MDS (Canada) Inc. v. Rad Source Techs., Inc.,
720 F.3d 833 (11th Cir. 2013), the Eleventh Circuit
exercised jurisdiction over a breach of contract appeal
which turned on whether one of the contracting parties
had infringed the patent.
Applying Gunn, the
Eleventh Circuit reasoned that “[b]ecause this question
of patent infringement is heavily fact-bound, our
resolution of this question is unlikely to control any
future cases.” Id. at 842. It explained that “[b]oth the
highly specialized nature of patent claims and the niche
market for blood irradiator devices suggest that the
resolution of this issue is unlikely to impact any future
constructions of claims.” Id. The Federal Circuit
concluded that these considerations supported
transferring the case to the Fifth Circuit. Pet. App.
48a.
The Fifth Circuit acknowledged that MDS
“provides perhaps the strongest support for [the
Federal Circuit’s] decision to transfer this case.” Pet.
App. 28a. It nonetheless distinguished MDS on the
ground that “the patent at issue in MDS was expired,”
and “MDS did not address whether the Walker Process
element of fraud on the PTO implicates federal patent
law.” Pet. App. 29a-30a.
As these cases—and the Fifth and Federal Circuit’s
varying interpretations of these cases—illustrate, the
jurisdictional inquiry is unclear in every circuit. The
circuits disagree on the basic question of whether
Gunn’s test applies to appellate jurisdiction: The
Federal, D.C., and Eleventh Circuit have answered
yes, the Fifth Circuit has answered no, and the Third

22
Circuit has deemed the issue “open to debate.” Lipitor,
855 F.3d at 146. Moreover, the Eleventh Circuit’s
decision in MDS introduces yet another complicating
factor. The Eleventh Circuit exercised jurisdiction
based on its analysis of the precise issues that were
presented. It concluded that because the specific
infringement issue before the court was “heavily factbound,” and because the specific patented technology
was in a “niche market,” a regional circuit could
exercise jurisdiction without disrupting the patent
system. 720 F.3d at 842. No other circuit has deemed
the precise legal issues, or the nature of the patented
technology, to be relevant to the jurisdictional inquiry.
Thus, the circuits disagree on the basic question of
whether courts should be looking to the factual and
legal issues in the case in deciding which court has
jurisdiction.
This uncertainty will lead to two bad outcomes. The
first will be more cases like this one: because the law is
so unclear on where appeals should be filed, there will
inevitably be more instances in which cases are
transferred back and forth between regional circuits
and the Federal Circuit.
The risk of this scenario is mitigated by law-of-thecase principles, which require courts to respect transfer
decisions so long as they are “plausible.” But that
opens the door to the second bad outcome: appellate
forum-shopping.
Suppose a litigant in a Walker
Process case, or similar non-patent case, really wants to
be in a regional circuit. Ironically, the best way to
achieve that outcome may be to notice an appeal to the
Federal Circuit.
Guided by its decision in this

23
proceeding, the Federal Circuit may transfer the case
to the regional circuit, and the regional circuit will be
obliged to defer to that decision so long as it is
“plausible.” Conversely, suppose a litigant really wants
to be in the Federal Circuit. The litigant’s best chance
might be to file the appeal in the regional circuit and
hope that the court follows the transfer analysis in the
Fifth Circuit’s decision below, and that the Federal
Circuit then deems the other court’s decision
sufficiently “plausible.” This type of forum-shopping
should not occur. Although a certain amount of forumshopping is inevitable at the trial court level, it is not
supposed to happen at the appellate court level—the
selection of the proper appellate court is supposed to be
a ministerial step. The bizarre reverse-psychology
forum-shopping that may occur—in which litigants
have an incentive to deliberately file their appeals in
disfavored circuits—is especially incongruous.
This Court’s guidance is urgently needed to resolve
the confusion in this area. Litigation over where to
litigate is wasteful and unedifying, and litigants need
clear rules.
Indeed, the need for clear rules is
sufficiently pressing that this case would have been
certworthy even before the Fifth Circuit initiated this
jurisdictional battle. This Court has recently granted
certiorari to resolve a dispute over where a case should
be litigated, even in the absence of a circuit conflict.
See Perry v. Merit Sys. Prot. Bd., 137 S. Ct. 1975, 1983
(2017) (granting certiorari to resolve whether certain
types of federal employee appeals should be filed in
district court or Federal Circuit, but noting that D.C.
Circuit and Federal Circuit had reached the same

24
conclusion on that question). Similarly, even before the
Fifth Circuit’s decision, Judge Newman filed a dissent
from denial of rehearing en banc attesting to the
importance of the question presented. Judge Newman
pointed to “the importance of this decision to the
judicial structure of patent adjudication, and the future
of a nationally consistent United States patent law.”
Pet. App. 53a. While Xitronix respectfully disagrees
with Judge Newman’s view that the Federal Circuit
had jurisdiction, Judge Newman’s opinion illustrates
that the question presented was sufficiently important
to warrant Supreme Court review even before the
Fifth Circuit ruled. The fact that the Fifth Circuit
subsequently created a direct circuit split makes the
need for immediate review even more urgent.
II.

THE
FIFTH
CIRCUIT,
NOT
FEDERAL
CIRCUIT,
JURISDICTION.

THE
HAS

Finally, this case warrants review because the Fifth
Circuit’s transfer order is wrong, and the Federal
Circuit lacked jurisdiction to issue a decision on the
merits. This Court should announce a clear rule:
appeals in Walker Process claims go to the regional
circuit, not the Federal Circuit.
Walker Process claims are antitrust claims, not
patent claims. Indeed, in Walker Process, this Court
held that the antitrust claim could go forward precisely
because it did not arise under the patent laws. The
defendant argued that the antitrust claim was “barred
by the rule that only the United States may sue to
cancel or annul a patent.” 382 U.S. at 175. In response,
this
Court
emphasized
that
the
plaintiff

25
“counterclaimed under the Clayton Act, not the patent
laws.” Id. at 176. Thus, “[w]hile one of its elements is
the fraudulent procurement of a patent, the action does
not directly seek the patent’s annulment.” Id.
Both Christianson and Gunn contemplate that
some non-patent claims might nonetheless “arise
under” the patent laws for jurisdictional purposes. But
in both Christianson and Gunn, this Court held that
the claims at issue did not arise under the patent laws.
And the reasoning of both Christianson and Gunn
supports Xitronix’s proposed rule.
In Christianson, this Court held that an antitrust
claim that raised an embedded issue of patent law
should go to the regional circuit, not the Federal
Circuit. It applied the principle that if “on the face of a
well-pleaded complaint there are … reasons completely
unrelated to the provisions and purposes of the patent
laws why the plaintiff may or may not be entitled to the
relief it seeks, then the claim does not ‘arise under’
those laws.” 486 U.S. at 810 (quotation marks and
brackets omitted) (ellipsis in original).
Under that standard, Walker Process claims do not
“arise under” the patent laws. To prove a Walker
Process claim, the plaintiff must prove not only that the
defendant committed fraud on the Patent Office, but
also “the other elements necessary to” a claim under
Section 2 of the Sherman Act. Walker Process, 382
U.S. at 174. In Walker Process, this Court emphasized
that establishing antitrust liability requires proving
monopolization of a relevant market, which goes
beyond merely proving that the patentee procured a
patent by fraud. This Court explained:

26
To establish monopolization or attempt to
monopolize a part of trade or commerce under
§ 2 of the Sherman Act, it would then be
necessary to appraise the exclusionary power of
the illegal patent claim in terms of the relevant
market for the product involved. Without a
definition of that market there is no way to
measure Food Machinery’s ability to lessen or
destroy competition. It may be that the device—
knee-action swing diffusers—used in sewage
treatment systems does not comprise a relevant
market. There may be effective substitutes for
the device which do not infringe the patent.
Walker Process, 382 U.S. at 177-78; see also Ill. Tool
Works, Inc. v. Indep. Ink, Inc., 547 U.S. 28, 45 (2006)
(holding that a “patent does not necessarily confer
market power upon the patentee.”). Whether such a
“relevant market” exists is a pure issue of antitrust
law. Thus, Xitronix “may or may not be entitled to the
relief it seeks,” Christianson, 486 U.S. at 810, for
antitrust reasons having nothing to do with patent law.
The Fifth Circuit ruled that Christianson required
transferring this case to the Federal Circuit, on the
basis that this case “presents a standalone Walker
Process claim.” Pet. App. 36a. In the Fifth Circuit’s
view, Walker Process claims go to the regional circuit
only if they are grouped with antitrust theories
unrelated to patent law. But nothing in Christianson
imposes this limit on the jurisdiction of regional
circuits. Moreover, the Fifth Circuit’s proposed rule
would yield significant uncertainty, forcing litigants to
parse complaints to determine whether Walker Process

27
allegations are sufficiently “standalone.” Rather than
sending some Walker Process claims to the regional
circuit and others to the Federal Circuit, the Court
should apply a single bright-line rule.
Gunn similarly supports sending Walker Process
claims to the regional circuits. In Gunn, this Court
held that patent issues embedded in legal malpractice
claims are not “substantial in the relevant sense”: while
they may be “significant to the particular parties in the
immediate suit,” they lack “importance … to the federal
system as a whole.” 568 U.S. at 260. The same is true
in Walker Process claims. To prove such a claim, the
plaintiff must show that the patentee made false
statements to the Patent Office. But as the Federal
Circuit pointed out, “[t]here is nothing unique to patent
law about allegations of false statements.” Pet. App.
43a.
And while “a determination of the alleged
misrepresentations to the PTO will almost certainly
require some application of patent law,” id. at 36a-37a,
this subsidiary question is no more “substantial” than
the subsidiary patent-law question necessary to resolve
the malpractice case in Gunn.
In reaching a contrary conclusion, the Fifth Circuit
emphasized that the patent-law “[i]nequitable conduct”
doctrine “resembles the fraud element of Walker
Process.” Pet. App. 26a. Consequently, it held that “if
this litigation determines that KLA defrauded the PTO
in obtaining the ’260 patent, collateral estoppel
principles would furnish a readymade inequitable
conduct defense to any potential infringer whom KLA
might sue.” Id. The Federal Circuit took a contrary
view of the collateral-estoppel consequences of a ruling

28
in Xitronix’s favor, concluding that such a ruling would
bind only the parties and would not apply to any other
potential infringers. Pet. App. 45a (“[E]ven if the
result of this case is preclusive in some circumstances,
the result is limited to the parties and the patent
involved in this matter.”). Regardless of which court is
correct on this issue, any potential collateral-estoppel
consequences of a ruling in Xitronix’s favor do not
warrant sending the case to the Federal Circuit. A
patent issue is not “substantial” merely because it may
affect the outcome of hypothetical future patent
litigation.
Likewise, regional circuits are capable of resolving
Walker Process appeals without disrupting the balance
between the Federal Circuit and regional circuits
approved by Congress. See Gunn, 568 U.S. at 258.
Even if Walker Process appeals are heard by regional
circuits, the Federal Circuit will still resolve the
overwhelming majority of patent-law issues. And
regional courts of appeals, which decide cases in myriad
areas of law, are perfectly capable of resolving the
occasional patent issue—federal district courts, after
all, do so all the time. Even if a regional circuit handles
a patent-law issue clumsily, the Federal Circuit can
always issue a subsequent decision clarifying the law.
Such Federal Circuit decisions would be binding
precedent in federal district court, so the precedential
effect of a prior patent-law decision by a regional circuit
would be subject to check. And in the unlikely event
that a circuit split arises between a regional circuit and
the Federal Circuit on a question of patent law, this
Court can of course grant certiorari. Meanwhile,

29
sending Walker Process claims to the Federal Circuit
would force that court to resolve antitrust issues with
which it has no routine familiarity. There is no basis for
believing that sending such cases to the Federal Circuit
would improve the quality of judicial decision-making.
Finally, this Court’s decisions in Gunn and
Christianson suggested that some cases that do not
arise under the Patent Act may nonetheless fall within
the federal district courts’ and Federal Circuit’s
arising-under jurisdiction, respectively. In reaching
that conclusion, Gunn and Christianson relied on a line
of cases similarly holding that, in certain narrow
circumstances, federal courts have arising-under
jurisdiction of state-law claims under 28 U.S.C. § 1331.
See Gunn, 568 U.S. at 258; Christianson, 486 U.S. at
808-09. But in Gunn, this Court noted this line of cases
had caused confusion, comparing the case law to a
Jackson Pollock canvas. 568 U.S. at 258.
In Grable & Sons Metal Products, Inc. v. Darue
Engineering & Manufacturing, 545 U.S. 308 (2005),
Justice Thomas stated that he would be “willing to
consider” “limiting § 1331 jurisdiction to cases in which
federal law creates the cause of action pleaded on the
face of the plaintiff’s complaint.” Id. at 320 (Thomas, J.,
concurring). He pointed out that “[j]urisdictional rules
should be clear,” and “trying to sort out which cases fall
within the smaller … category may not be worth the
effort it entails.” Id. at 321 (Thomas, J., concurring).
To the extent Justice Thomas or other members of the
Court were inclined to limit the Federal Circuit’s
jurisdiction to cases that actually arise under the
Patent Act, this case would be an appropriate vehicle.

30
CONCLUSION
The petition for a writ of certiorari should be
granted. This Court may wish to consider consolidating
this petition with Xitronix Corp. v. KLA-Tencor Corp.,
No. 18-1170, which seeks review of the Fifth Circuit’s
transfer order.
Respectfully submitted,
MICHAEL S. TRUESDALE
ENOCH KEVER PLLC
5918 W. Courtyard Dr.,
Suite 500
Austin, TX 78730

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

APPENDIX

1a
Appendix A
NOTE: This disposition is nonprecedential.

United States Court of Appeals
For the Federal Circuit
____________________
XITRONIX CORPORATION,
Plaintiff-Appellant
v.
KLA-TENCOR CORPORATION, DBA KLATENCOR, INC., A DELAWARE CORPORATION,
Defendant-Appellee
____________________
2016-2746
____________________
Appeal from the United States District Court for
the Western District of Texas in No. 1:14-cv-01113-SS,
Judge Sam Sparks.
____________________
JUDGMENT
____________________
Ross Spencer Garsson, Dickinson Wright PLLC,
Austin, TX, argued for plaintiff-appellant.
Also
represented by MICHAEL S. TRUESDALE, Law Office of
Michael S. Truesdale, PLLC, Austin, TX.

2a
AARON GABRIEL FOUNTAIN, DLA Piper US LLP,
Austin, TX, argued for defendant-appellee.
Also
represented by BRIAN K. ERICKSON, JOHN GUARAGNA.
____________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
Per Curiam (Moore, Mayer, and Hughes, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
May 23, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
Appendix B
NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
_________________
XITRONIX CORPORATION,
Plaintiff-Appellant
v.
KLA-TENCOR CORPORATION, DBA KLATENCOR, INC., A DELAWARE CORPORATION,
Defendant-Appellee
_________________
2016-2746
_________________
Appeal from the United States District Court for
the Western District of Texas in No. 1:14-cv-01113-SS,
Judge Sam Sparks.
_________________
SUA SPONTE
_________________
Before MOORE, MAYER, and HUGHES, Circuit Judges.
PER CURIAM.

4a
ORDER
The Fifth Circuit has transferred to us this Walker
Process appeal. Xitronix Corp. v. KLA-Tencor Corp.,
No. 18-50114, 2019 WL 643220 (“Transfer Order”). As
the Supreme Court explained in Christianson v. Colt
Industries Operating Corp., 486 U.S. 800, 819 (1988), if
a transferee court can find the transfer decision
“plausible,” it should accept jurisdiction. We apply that
rule here. While we do not agree with some of the legal
analysis in the Transfer Order, we nevertheless
conclude its ultimate conclusion that we have
jurisdiction is not “implausible.”
As an initial matter, we note that the Transfer
Order incorrectly suggests that the jurisdictional
analysis under 28 U.S.C. § 1338(a) considers “whether
all claims in the plaintiff’s well-pleaded complaint
necessarily depended on the resolution of a substantial
question of patent law.” Transfer Order 5 (citing
Christianson, 486 U.S. at 810–11). As Christianson
itself recognized, jurisdiction exists under § 1338(a)
where “patent law is a necessary element of one of the
well-pleaded claims.” 486 U.S. at 809 (emphasis
added). The cited analysis in Christianson instead
made clear that patent law must be “essential” to each
theory of a claim in order for § 1338(a) to be implicated.
Christianson, 486 U.S. at 810–11.
The Transfer Order also suggests that the Court’s
decision in Gunn v. Minton, 568 U.S. 251 (2013), is
inapplicable to the jurisdictional analysis in this case.
That proposition is untenable. In Gunn the Court
considered the meaning of the phrase “any civil action
arising under any Act of Congress relating to patents”

5a
as it appears in § 1338(a). Id. at 257. Here, we consider
the meaning of the phrase “any civil action arising
under . . . any Act of Congress relating to patents” as it
appears in 28 U.S.C. § 1295(a)(1). It is a fundamental
canon of statutory construction that words used in
different parts of the same statute are generally
presumed to have the same meaning. See, e.g., IBP,
Inc. v. Alvarez, 546 U.S. 21, 22 (2005); Reiche v.
Smythe, 80 U.S. 162, 165 (1871). Unlike in Wachovia
Bank v. Schmidt, 546 U.S. 303 (2006), cited in the
Transfer Order, this is not a case in which a term is
being used in two very different legal contexts.
Instead both uses of the phrase appear in Part IV of
Title 28 and serve to define the jurisdiction of
particular federal courts. Additionally, while the Fifth
Circuit suggests that the 2011 amendments to § 1295
indicate that the two provisions should not be
construed together, those amendments in fact suggest
the opposite. Section 19 of the Leahy-Smith America
Invents Act, PL 112-29, September 16, 2011, 125 Stat
284, amended both § 1295(a)(1) and § 1338(a). It
revised § 1295(a)(1) to parallel § 1338(a) while
expanding Federal Circuit jurisdiction to cover
compulsory counterclaims, a matter not at issue in this
case. In light of the clear parallel language in the two
provisions and their shared purposes and statutory
history, we must respectfully reject the Fifth Circuit’s
suggestion that Gunn is inapplicable.
The Fifth Circuit also misreads our decision in
Nobelpharma AB v. Innovations, Inc., 141 F.3d 1059
(Fed. Cir. 1998). The question of whether we have
exclusive jurisdiction over a matter and the question of

6a
whether we apply “Federal Circuit law” or regional
circuit law to a question before us are related but
distinct. See In re Deutsche Bank Tr. Co. Americas,
605 F.3d 1373, 1377 (Fed. Cir. 2010) (explaining that
“[i]n deciding which law to apply, we consider several
factors including: the uniformity in regional circuit law,
the need to promote uniformity in the outcome of
patent litigation, and the nature of the legal issue
involved” (citation omitted)); FilmTec Corp. v.
Hydranautics, 67 F.3d 931, 935 (Fed. Cir. 1995)
(“Unless a procedural matter is importantly related to
an area of this court’s exclusive jurisdiction, . . . we will
usually be guided by the views of the circuit in which
the trial court sits . . . .” (emphasis added)). In short, in
Nobelpharma we considered whether the issue on
appeal “clearly involves” our jurisdiction, not whether
the issue would give rise to jurisdiction.
Despite these and other flaws, the Transfer Order’s
conclusion that we have jurisdiction is not implausible.
The Court’s decision in Gunn could be read to imply
that whether the patent question at issue is substantial
depends on whether the patent is “live” such that the
resolution of any question of patent law is not “merely
hypothetical.” See Gunn, 568 U.S. at 261. Here, the
underlying patent has not expired, and the resolution of
the fraud question could affect its enforceability.
Walker Process fraud and inequitable conduct are
fraternal twins, such that conclusions as to Walker
Process fraud would likely resolve questions as to the
enforceability of the patent. See Nobelpharma AB, 141
F.3d at 1070 (“Simply put, Walker Process fraud is a
more serious offense than inequitable conduct.”).

7a
Under this interpretation of Gunn, therefore, we would
have jurisdiction.
While it is not implausible to reach this conclusion,
we reject the theory that our jurisdiction turns on
whether a patent can still be asserted. Under this
logic, cases involving Walker Process claims based on
expired patents would go to the regional circuits while
those with unexpired patents would come to us, despite
raising the same legal questions. Nevertheless, the fact
that the underlying patent in this case has not expired
and the fact that any decision could have effects on
enforceability is a plausible reason for us to accept
jurisdiction.
Thus, we accept the transfer and will resolve this
case on the merits. No further briefing will be
permitted, and a new oral argument will be set by
forthcoming order.
IT IS ORDERED THAT:
The mandate of this court issued on June 22, 2018 is
recalled, and the appeal is reinstated. No additional
briefing is permitted. Oral argument will be scheduled.
FOR THE COURT
March 14, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

8a
Appendix C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
__________
No. 18-50114
__________
XITRONIX CORPORATION,
Plaintiff - Appellant
v.
KLA-TENCOR CORPORATION,
doing business as KLA-Tencor,
Incorporated, a Delaware Corporation,
Defendant – Appellee
FILED February 15, 2019
____________________
Appeal from the United States District Court
for the Western District of Texas
____________________
Before JOLLY, DENNIS, and HIGGINSON, Circuit
Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
The substantive issue in this appeal is whether
a jury should hear Xitronix Corporation’s claim that

9a
KLA-Tencor Corporation violated the Sherman Act’s
prohibition of monopolies by obtaining a patent through a
fraud on the U.S. Patent and Trademark Office
(“PTO”). What must first be decided, however, is
whether we can reach that issue despite the Federal
Circuit’s exclusive jurisdiction over cases arising under
federal patent law. That court transferred this case to
us, but we find it implausible that we are the proper
court to decide this appeal. With respect, therefore, we
transfer it to the U.S. Court of Appeals for the Federal
Circuit.
I
This is the third round of litigation between Plaintiff–
Appellant Xitronix Corporation and Defendant–
Appellee
KLA-Tencor
Corporation
(“KLA”),
competitors in the “semiconductor wafer optical
inspection market.” Optical inspection technology is
used for quality control in the production of
semiconductor wafers, which are essential components of
circuits in computers and other electronic devices. We
understand from the parties that an optical inspection
device employs two lasers, a “pump” beam and a
“probe” beam, in tandem. The pump beam heats the
surface of a semiconductor sample. The probe beam,
in turn, detects changes in the semiconductor surface.
The device converts the changes detected by the
probe beam into an electrical signal, which it then
measures. The device can thereby precisely observe
the composition of the semiconductor sample, helping
manufacturers ensure that their processes are working
as intended.

10a
A
Litigation began in 2008 with Xitronix seeking a
declaratory judgment against KLA. According to
Xitronix, KLA was and is the dominant player in the
semiconductor optical inspection market, with
approximately eighty-percent market share. KLA
had examined the technology that Xitronix was then
bringing to market and amended a pending patent
application to cover Xitronix’s technology.
This
application resulted in the issuance of U.S. Patent
7,362,441 (“the ’441 patent”). In this first lawsuit,
Xitronix sought a declaration of non-infringement and of
the ’441 patent’s invalidity.
In November 2010, a jury entered a verdict in
Xitronix’s favor. When the district court entered final
judgment in January 2011, it explained that the
central issue at trial was the wavelength of the probe
beam used by Xitronix.
The claims of the ’441
patent at issue in the case specified a wavelength
between 335 and 410 nanometers (nm) and said that
such wavelength “is selected to substantially
maximize the strength of the output signals
corresponding to the modulated optical reflectivity
1
response.” The probe beam in Xitronix’s device was
fixed at a wavelength of 373 nm, putting it and KLA’s
patent squarely in conflict. The jury found that
Xitronix’s technology infringed one claim of KLA’s ’441
patent but that this claim was anticipated by prior art:
the “Therma-Probe” device and an earlier patent, the
’611 or “Alpern” patent. The jury also found three
1

U.S. Patent No. 7,362,441 (issued April 22, 2008).

11a
other claims of KLA’s ’441 patent invalid due to
obviousness. The district court ruled that ample
evidence supported the jury’s findings. It identified
two additional pieces of prior art, Batista and
Mansanares: “[E]ach and every element of the asserted
claims were present in the combination of prior art
Therma-Probe, Batista, Mansanares, and the ’611
[Alpern] patent.” The district court also ruled one
of the claims invalid as indefinite. KLA did not appeal
the judgment in the ’441 litigation.
In March 2011, Xitronix commenced the second
suit, bringing business tort claims against KLA for
publicly accusing Xitronix of patent infringement. The
district court, which remanded the case to Texas state
court, later explained that the state district court
ruled in favor of KLA “for unspecified reasons.”
Neither party advises that this second litigation has any
bearing on the present appeal.
B
The present case began in December 2014.
Xitronix alleged a single Walker Process claim:
monopolization through use of a patent obtained by
2
fraud on the PTO. The patent purportedly resulting
2

Walker Process Equip., Inc. v. Food Machinery & Chem. Corp.,
382 U.S. 172, 174 (1965) (“[T]he enforcement of a patent procured
by fraud on the Patent Office may be violative of § 2 of the
Sherman Act provided the other elements necessary to a § 2 case
are present.”) A showing of fraud on the PTO requires “(1) a false
representation or deliberate omission of a fact material to
patentability, (2) made with the intent to deceive the patent
examiner, (3) on which the examiner justifiably relied in granting
the patent, and (4) but for which misrepresentation or deliberate

12a
from KLA’s fraud on the PTO is U.S. Patent No.
8,817,260 (“the ’260 patent”). It is a continuation of an
earlier patent, the ’486 patent, which was itself a
continuation of the ’441 patent at issue in the parties’
first litigation. KLA filed the application that yielded
the ’260 patent in November 2009, U.S. Application No.
3
12/616,710, a year before the jury entered its
verdict invalidating the ’441 patent. The litigation
of ’441 and the prosecution of ’260 unfolded in tandem.
It is KLA’s representations to the PTO concerning the
’441 litigation while conducting the ’260 prosecution
that are at issue here.
In February 2010, KLA submitted an Informational
Disclosure Statement (“IDS”) with sixty works
potentially containing relevant prior art. This IDS
included the key sources on which the jury would
invalidate the ’441 patent later that year as well as
summary judgment briefing from the litigation. In
August 2010, the PTO examiner, Layla Lauchman,
initialed and signed the IDS, thereby acknowledging
these sources.
On November 5, 2010, the jury
returned its verdict invalidating the ’441 patent. On
November 18, Michael Stallman, KLA’s patent
omission the patent would not have been granted.” C.R. Bard,
Inc. v. M3 Systems, Inc., 157 F.3d 1340, 1364 (Fed. Cir. 1998). “To
establish the antitrust portion of a Walker Process allegation, a
plaintiff must show that the defendant held monopoly power in the
relevant market and willfully acquired or maintained that power
by anticompetitive means.” Delano Farms Co. v. Calif. Table
Grape Comm’n, 655 F.3d 1337, 1351 (Fed. Cir. 2011) (citing C.R.
Bard, 157 F.3d at 1367–68).
3

For simplicity’s sake, we use “260” to identify this application.

13a
prosecution attorney, submitted the jury’s verdict in
the ’441 litigation to the PTO and sought to explain its
meaning. He acknowledged an Office Action of August
18 that rejected the claims in the ’260 application on
the grounds of “non-statutory obviousness-type
4
double patenting” in view of the ’441 patent. This
means that, as of 2010, the PTO saw claims in the ’260
application as obvious in light of claims later invalidated
in the ’441 litigation. Stallman responded to this
rejection by agreeing to a “terminal disclaimer” of the
5
claims in the pending ’260 application.
4

Patent law guards against attempts to obtain multiple patents for
the same invention. To that end, the PTO issues “double patenting
rejections” in two forms. One is a “statutory” rejection, which
reflects a judgment that a patent holder is trying to patent the
same invention again. The other is a “non-statutory” rejection,
which is “based on a judicially created doctrine grounded in public
policy and which is primarily intended to prevent prolongation of
the patent term by prohibiting claims in a second patent not
patentably distinct from claims in a first patent.” Manual of
Patent Examination Procedure § 804 (emphasis added). “A
rejection for obvious-type double patenting means that the claims
of a later patent application are deemed obvious from the claims of
an earlier patent.” Quad Envtl. Techs. Corp. v. Union Sanitary
Dist., 946 F.2d 870, 873 (Fed. Cir. 1991).

5

A terminal disclaimer “relinquishes a terminal part of the time
span of the patent right in the patent as a whole.” 1 Moy’s Walker
on Patents § 3:68 (4th ed., 2017). “[A] terminal disclaimer is a
strong clue that a patent examiner and, by concession, the
applicant, thought the claims in the continuation lacked a
patentable distinction over the parent.” SimpleAir, Inc. v. Google
LLC, 884 F.3d 1160, 1168 (Fed. Cir. 2018). That said, the Federal
Circuit’s cases “foreclose the inference that filing a terminal
disclaimer functions as an admission regarding the patentability of
the resulting claims.” Id. at 1167.

14a
The district court entered final judgment in the ’441
litigation on January 31, 2011.
On February 2,
Lauchman issued a Notice of Allowability as to the ’260
patent application predicated on the terminal disclaimer
to which KLA had agreed. On February 10, Stallman
filed another IDS, bringing the final judgment in the
’441 litigation and the district court’s accompanying
order to the PTO’s attention.
He submitted a
Request for Continued Examination as well.
The PTO did not act on the application again for
two years, by which time a new examiner, Willie
Merrell, was handling it. His initials, dated July 12,
2013, appear on the IDS from February 2011 containing
the final judgment and related documents, suggesting
he had seen and considered the references.
In an
Office Action dated July 25, 2013, Merrell rejected
much of the ’260 application. He did so without
reference to the final judgment in the ’441 litigation,
to the PTO’s prior non-statutory double patenting
rejection, or to the materials on which the judgment in
the ’441 litigation was based. Instead, he conducted a
novel analysis based on other prior art further afield.
Despite this rejection, the ’260 patent did
eventually issue.
Xitronix’s claims concern the
actions by KLA making that possible. Stallman filed
a response to Merrell in October 2013. The remarks in
that filing are one basis for the fraud element of
Xitronix’s Walker Process claim. Merrell responded in
January 2014, standing by his previous rejection.
Stallman responded in March 2014 with more
remarks––another filing central to Xitronix’s Walker
Process claim. A Notice of Allowability soon issued,

15a
in which Merrell briefly explained that KLA’s
arguments “have been fully considered and are
persuasive.” The ’260 patent issued in August 2014,
and Xitronix’s Walker Process suit followed that
December.
Xitronix alleged that KLA’s procurement of the ’260
patent impeded its ability to finance its entrance into the
market for optical inspection technology. At summary
judgment, the litigation focused on whether Xitronix
had created issues of material fact as to two elements
of fraud on the PTO: whether KLA had made material
misrepresentations or omissions to the PTO, and
whether those were a but-for cause of the ’260
patent’s issuance.
The district court found that
Stallman’s remarks in his October 2013 and March
2014 filings were confined to those pieces of prior art
specifically addressed by Merrell in previous Office
Actions and contained no broader misrepresentations.
To the extent Stallman mischaracterized the prior art,
the district court reasoned, this was permissible
attorney argument, not fraud. Stallman was free to
make such argument, and the examiner was free to
reject it, because Stallman had submitted all relevant
materials from the ’441 litigation already.
The district court also found no but-for causation.
Notably, it was not because the court viewed the ’441
and ’260 patents as dissimilar, such that the former
would not control the latter. Indeed, the court saw
them as similar. Rather, it saw the PTO as making
a fully conscious and informed choice. Granting
summary judgment to KLA, the district court wrote:

16a
Although Xitronix has repeatedly argued that
the examiner was unaware of the jury verdict
and final judgment invalidating the claims at
issue, the Court suspects the examiner was in fact
aware of the Court’s holding but chose to
ignore it. It would not be the first time the
PTO, an administrative agency, overrode a
final judgment of an Article III court, and it will
likely not be the last.
That is, according to the district court, it could not be
said that the PTO relied upon, and was thus defrauded
by, KLA’s alleged misrepresentations; rather, the PTO
had a mind of its own. The district court’s grant of
summary judgment to KLA brought the case to a close,
precipitating this appeal.
C
Xitronix’s appeal went originally to the Federal
Circuit. Before oral argument in the case, the panel of
that court ordered briefing on transferring the case to
our court for lack of jurisdiction. Xitronix Corp. v.
KLA-Tencor Corp., 882 F.3d 1075, 1076 (Fed. Cir.
2018). The parties, who agreed that the case belonged
in the Federal Circuit, spent the bulk of oral argument
on the subject and briefed the issue further
6
afterwards. Despite the parties’ consensus, the panel
was not persuaded, ruling based on Gunn v. Minton, 568
U.S. 251 (2013), that it lacked jurisdiction. Following
the transfer order, KLA petitioned for en banc
6

Oral Argument, Xitronix Corp. v. KLA-Tencor Corp., 882 F.3d
1075 (Fed. Cir. 2018) (No. 16-2746).

17a
7

rehearing, which the Federal Circuit rejected by a vote
of ten to two. Xitronix Corp. v. KLA-Tencor Corp.,
892 F.3d 1194 (Fed. Cir. 2018). Judge Pauline
Newman dissented from that ruling, taking the panel to
task for initiating “a vast jurisdictional change for the
regional circuits as well as the Federal Circuit.” Id. at
1196.
II
“Federal courts are courts of limited jurisdiction,”
possessing “only that power authorized by Constitution
and statute.” Kokonnen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994). “The requirement that
jurisdiction be established as a threshold matter
‘spring[s] from the nature and limits of the judicial
power of the United States’ and is ‘inflexible and
without exception.’” Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 94–95 (1998) (quoting Mansfield,
C. & L. M. Ry. Co. v. Swan, 111 U.S. 379, 382 (1884)).
Consequently, “[w]e must always be sure of our
appellate jurisdiction and, if there is doubt, we must
address it, sua sponte if necessary.” Casteneda v.
Falcon, Jr., 166 F.3d 799, 801 (5th Cir. 1999).
III
Under the law that prevailed for many years, it was
clear that a standalone Walker Process claim such as
7

Notwithstanding its initial position, Xitronix opposed KLA’s en
banc petition, now agreeing with the panel that the case did not
implicate the Federal Circuit’s exclusive jurisdiction. Response of
Plaintiff-Appellant Xitronix Corporation to Petition for Panel
Rehearing and Rehearing En Banc, Xitronix Corp. v. KLA-Tencor
Corp., 892 F.3d 1194 (Fed. Cir. 2018) (No. 16-2746).

18a
this would belong in the Federal Circuit.
See
Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 809 (1988); Ritz Camera & Image, LLC v.
SanDisk Corp., 700 F.3d 503 (Fed. Cir. 2012). The
parties have not identified any case that involved
solely Walker Process claims and that was decided by
a circuit court other than the Federal Circuit. Indeed,
the last Walker Process case decided by the Fifth
Circuit was in 1975, before the Federal Circuit was
created. See Becton, Dickinson, & Co. v. Sherwood
Med. Indus., Inc., 516 F.2d 514 (5th Cir. 1975);
Federal Courts Improvement Act of 1982, Pub. L. No.
97-164, § 127(a), 96 Stat. 25, 37 (1982).
The Federal Circuit nevertheless transferred the
case to us, based on a jurisdictional analysis that we
must accept if it is at least “plausible.”
See
Christianson, 486 U.S. at 819. The Federal Circuit
transferred the case because it understood Gunn v.
Minton, 568 U.S. 251 (2013), to change the law
governing the allocation of cases between it and the
regional circuits. There are compelling reasons to
think that Gunn did not, but the answer to this
question is not determinative here.
Under any
reading of Gunn, we deem it implausible that we can
decide this appeal.
A
The Federal Circuit has “exclusive jurisdiction of an
appeal from a final decision of a district court of the
United States . . . in any civil action arising under . . .
any Act of Congress relating to patents or plant variety
protection.” 28 U.S.C. § 1295(a)(1). Before 2011, the
statute read differently, conferring
exclusive

19a
jurisdiction “of an appeal from a final decision of a
district court of the United States . . . if the jurisdiction
of that court was based, in whole or in part, on section
1338 of this title.” Section 1338(a), in turn, gave district
courts “original jurisdiction of any civil action arising
under any Act of Congress relating to patents,”
among other subjects. Id. § 1338(a).
The Supreme Court construed the earlier
version of the statute in Christianson v. Colt
Industries Operating Corp., 486 U.S. 800 (1988).
Christianson is the primary guide to our decision
here because it furnished several rules that control
the present case. Christianson was a former employee
of Colt, the famous gunmaker, and had gone into
business selling M-16 replacement parts. Id. at 804.
Colt was telling customers that Christianson was
illegally misappropriating its trade secrets, leading
Christianson to sue both for tortious inference with
business relations and for violations of the Sherman
Act. Id. at 805. Christianson argued that Colt could not
claim trade-secret protection because its patents
were invalid, and indeed, the district court
invalidated nine Colt patents. Id. at 806.
The Supreme Court had to decide whether the
appeal belonged in the Seventh Circuit or the Federal
Circuit. Id. at 806–07. Appeal had been taken to the
Federal Circuit, which transferred it to the Seventh
Circuit, and that court then transferred it back. Id.
Under protest, the Federal Circuit then decided the
case in the “interest of justice.” Id. at 807.
With the Federal Circuit’s jurisdictional statute,
§ 1295, tied to § 1338, the Court had to construe the

20a
latter provision. 486 U.S. at 807. It noted that § 1338
contained an “arising under” formulation quite like the
federal-question statute, § 1331, and was therefore
susceptible to a complication that has bedeviled the
latter statute: what to do with causes of action not
created by federal law that nevertheless turn on
substantial questions of federal law? The Federal
Circuit’s equivalent dilemma was deciding what to do
with causes of action not created by federal patent law
that nevertheless implicate it.
The Court noted that federal-question jurisdiction
had long included state claims turning on substantial
federal questions. 486 U.S. at 808; see Merrell Dow
Pharm. Inc. v. Thompson, 478 U.S. 804 (1986);
Franchise Tax Bd. of Cal. v. Constrn. Laborers
Vacation Trust, 463 U.S. 1 (1983); Gully v. First Nat’l
Bank in Meridian, 299 U.S. 109 (1936). The Court
then announced the following rule:
Linguistic consistency, to which we have
historically adhered, demands that § 1338(a)
jurisdiction likewise extend only to those cases
in which a well-pleaded complaint establishes
either that federal patent law creates the cause
of action or that the plaintiff’s right to relief
necessarily depends on resolution of a
substantial question of federal patent law, in
that patent law is a necessary element of one of
the well-pleaded claims.
486 U.S. at 809.
That did not resolve the case before it, however,
because not all of Christianson’s claims depended on

21a
resolving substantial questions of patent law. 486 U.S.
at 810–11. Consequently, the Court held that lower
courts should determine whether all claims in the
plaintiff’s
well-pleaded
complaint
necessarily
depended on the resolution of a substantial question
of federal patent law. Id. “[A] claim supported by
alternative theories in the complaint may not form the
basis for § 1338(a) jurisdiction unless patent law is
essential to each of those theories.” Id. at 810.
Accordingly, Christianson’s case did not belong in the
Federal Circuit.
The Court also addressed the “peculiar jurisdictional
battle” between the Seventh and Federal Circuits. 486
U.S. at 803. As noted, the Federal Circuit had the
case first but transferred it. Id. at 817. This ruling was
the law of the case, from which the Seventh Circuit
departed. Id. This was not impermissible: “A court
has the power to revisit prior decisions of its own or of
a coordinate court in any circumstance, although as a
rule courts should be loath to do so in the absence of
extraordinary circumstances, such as where the initial
decision was clearly erroneous and would work a
manifest injustice.”
Id. (quotation omitted).
Receiving the case again, the Federal Circuit disputed
it had jurisdiction but decided the case anyway. The
Court ruled that this was error. Id. at 818. But if the
Federal Circuit erred by deciding the case, how then
to bring this interminable “game of jurisdictional pingpong,” id., to a close? The Court gave the following
guidance: “Under law-of-the-case principles, if the
transferee court can find the transfer decision

22a
plausible, its jurisdictional inquiry is at an end.” Id. at
819 (emphasis added).
Following Christianson, the Federal Circuit has
regularly exercised jurisdiction over Walker Process
claims. See, e.g., Ritz Camera & Image, 700 F.3d at
506; Nobelpharma AB v. Implant Innovations, Inc.,
141 F.3d 1059, 1072–73 (Fed. Cir. 1998).
In so
doing, and vital to our analysis here, the Federal
Circuit has been clear in its view that “the
determination of fraud before the PTO necessarily
involves a substantial question of patent law.” In re
Ciprofloxacin Hydrochloride Antitrust Litig., 544 F.3d
1323, 1330 n.8 (Fed. Cir. 2008) (“Cipro”) (citing
Christianson, 486 U.S. at 808), abrogated on other
grounds by F.T.C. v. Actavis, Inc., 570 U.S. 136 (2013).
Other circuits have decided Walker Process cases, it
should be said. Such cases have ended up in the
regional circuits because of the line drawn in
Christianson: cases depending solely on patent
theories go to the Federal Circuit; cases not so
dependent stay in the regional circuits. See, e.g., In
re Lipitor Antitrust Litig., 855 F.3d 126, 146 (3rd Cir.
2017); In re DDAVP, 585 F.3d 677, 685 (2nd Cir. 2009);
Kaiser Found. Health Plan, Inc. v. Abbott Labs., Inc.,
552 F.3d 1033, 1041–42 (9th Cir. 2009).
B
The foregoing is the backdrop to Gunn v. Minton,
on which the Federal Circuit relied here.
See
Xitronix, 882 F.3d at 1077. The present question is
whether, and how, Gunn altered the landscape just
described.

23a
Gunn called for the Supreme Court to decide
whether a state-law legal malpractice case arising from
a patent infringement suit could be brought only in
federal court. 568 U.S. at 253–56. Minton, a developer of
software for trading securities, had hired Gunn, a
patent lawyer, to sue NASDAQ and others for
infringing Minton’s patent. Id. at 253–54. In the
infringement case, the federal court had granted
summary judgment against Minton, declaring his
patent invalid. Id. at 254. Minton then sued Gunn for
legal malpractice, arguing that Gunn had failed to raise
a key argument in a timely manner. Id at 255. The
state district court ruled for the lawyer. Id. On
appeal, Minton made a novel argument: though he
had filed the suit in state court, federal courts had
exclusive jurisdiction because the suit raised a
substantial question of federal patent law. Id. A
divided Texas court of appeals disagreed, but a divided
Texas Supreme Court ruled that Minton was right. Id.
at 255–56.
The United States Supreme Court reversed, holding
that the case could be brought in state court. The
Court noted that both the federal-question statute,
§ 1331, and the district courts’ patent jurisdiction statute,
§ 1338, were implicated. 568 U.S. at 257. The Court
then applied a four-factor test that it had developed
over the years to decide federal-question issues.
“[F]ederal jurisdiction over a state law claim will lie if
a federal issue is: (1) necessarily raised, (2) actually
disputed, (3) substantial, and (4) capable of resolution
in federal court without disrupting the federal-state
balance approved by Congress.” Id. at 258 (citing

24a
Grable & Sons Metal Prods. Inc. v. Darue Eng. &
Manuf., 545 U.S. 308, 314 (2005)).
The Court acknowledged that Minton’s lawsuit
against Gunn necessarily raised the disputed issue of
Gunn’s handling of a patent case. 568 U.S. at 259. It
focused on the third and fourth parts of the test, and
there it found the case lacking. “The substantiality
inquiry under Grable looks . . . to the importance of the
issue to the federal system as a whole.” Id. at 260.
The patent issue in Gunn and Minton’s case was
“backward-looking,” “merely hypothetical,” and not
likely to “change the real-world result of the prior federal
patent litigation.” Id. at 261. As such, it had no
8
importance for the federal system writ large. The
Court emphasized that it would upset the balance
between state and federal judiciaries to move such
legal malpractice cases exclusively into federal court,
given the states’ “special responsibility for
maintaining standards among members of the licensed
professions.” Id. at 264 (quotation omitted).
Gunn gave no indication that it meant to alter
Christianson or the allocation of cases among the
circuit courts. There was no occasion for it, because
the case was appealed from a state’s highest court. On
the contrary, the centrality of the Federal Circuit to
8

In Grable, by contrast, a state quiet-title action turned on the
Internal Revenue Code provision governing the notice that the
IRS must provide to delinquent taxpayers before seizing their
property. 545 U.S. at 310–11. This implicated “the Government’s
‘strong interest’ in being able to recover delinquent taxes through
seizure and sale of property,” making the case suitable for
resolution in a federal forum. Gunn, 568 U.S. at 260–61.

25a
patent adjudication was a premise of Gunn’s
reasoning. 568 U.S. at 261–62. Against the argument
that state-court adjudication of the patent issue in
Gunn would undermine the uniformity of federal
patent law, the Court said that “Congress ensured such
uniformity” by vesting exclusive appellate jurisdiction
in the Federal Circuit. Id.
C
Since Gunn, the Federal Circuit has incorporated a
substantiality inquiry into determinations of its own
jurisdiction. See, e.g., Neurorepair, Inc. v. The Nath
Law Group, 781 F.3d 1340, 1345–49 (Fed. Cir. 2015);
Jang v. Boston Sci. Corp., 767 F.3d 1334, 1336௅38
(Fed. Cir. 2014). In this case, the court acknowledged
that the case would require applying patent law
but disputed the case’s substantiality. 882 F.3d at 1078.
“Patent claims will not be invalidated or revived based
on the result of this case,” and “the result [of the case]
is limited to the parties and the patent involved in this
matter.” Id. at 1078. It viewed any threat to the
uniformity of patent law as insubstantial. Id.
The court’s reasoning depended on several
premises that we find implausible. First, the court said
that there was no dispute about the validity of the
patent at issue. 882 F.3d at 1078. In her dissent from
denial of rehearing, Judge Newman responded that this
was “a puzzling statement, for that is the dispute.” 892
F.3d at 1199. A finding of fraud on the PTO would
render KLA’s ’260 patent effectively unenforceable in
future cases. See C.R. Bard, 157 F.3d at 1367 (“Fraud
in obtaining a United States patent is a classical
ground of invalidity or unenforceability of the patent.”).

26a
Inequitable conduct is a defense to a claim of patent
infringement that bars enforcement of the patent.
Therasense Inc. v. Becton, Dickinson & Co., 649 F.3d
1276, 1285 (Fed. Cir. 2011) (en banc). Inequitable
conduct resembles the fraud element of Walker
Process, in that it requires proof of misrepresentation,
scienter, and a showing of materiality or causation.
Id. at 1290. Over time, it has evolved to be
“virtually congruent with intentional fraud under
Walker Process.” J. Thomas Roesch, Patent Law and
Antitrust Law: Neither Friend nor Foe, but Business
Partners, 13 Sedona Conf. J. 95, 100 (2012).
Consequently, if this litigation determines that KLA
defrauded the PTO in obtaining the ’260 patent,
collateral estoppel principles would furnish a
readymade inequitable conduct defense to any potential
infringer whom KLA might sue. See Blonder-Tongue
Labs., Inc. v. Univ. of Ill. Found., 402 U.S. 313, 330–34
(1971).
Next, the Federal Circuit read its precedent
predating Gunn in a manner at odds with our reading
of that caselaw. In Nobelpharma, a Walker Process
case, the en banc Federal Circuit said that “[w]hether
conduct in the prosecution of a patent is sufficient to
strip a patentee of its immunity from the antitrust laws
is one of those issues that clearly involves our exclusive
jurisdiction over patent cases.” 141 F.3d at 1067.
The Federal Circuit distinguished Nobelpharma here,
reasoning that Nobelpharma was not deciding the
venue of the appeal, but whether to apply regional
circuit or Federal Circuit precedent to various issues.
882 F.3d at 1078௅79. This distinction strikes us as

27a
immaterial. The tests for both questions turn on the
Federal Circuit’s exclusive jurisdiction over a given
issue. It does not matter that Nobelpharma analyzed
its jurisdiction for one purpose rather than the other.
The court also sought to distinguish Cipro, a
Walker Process case transferred from the Second to the
Federal Circuit. 544 F.3d at 1323. Accepting the
transfer, the Federal Circuit observed that “the
determination of fraud before the PTO necessarily
involves a substantial question of patent law.” Id. at
1330 n.8 (citing Christianson, 468 U.S. at 808). The
court distinguished Cipro here because, as a
transferred case, the Second Circuit’s jurisdictional
analysis had only to meet the Christianson
plausibility standard. But the Federal Circuit in
Cipro stated its unqualified agreement with the
Second Circuit’s analysis, making no reference to
plausibility.
We note one more case indicating that, before Gunn,
the Federal Circuit understood fraud on the PTO to
present a substantial question of federal patent law
implicating its exclusive jurisdiction. In Ritz Camera
& Image, an interlocutory appeal arose from a suit in
the Northern District of California about the standing
of certain plaintiffs to bring a Walker Process action.
700 F.3d at 505. Like the present case, this appeal
presented solely a Walker Process issue, and the
Federal Circuit did not even pause to consider its
jurisdiction.
Another basis for the Federal Circuit’s transfer
decision is its interpretation of post-Gunn decisions
from other circuit courts. The court cited In re Lipitor

28a
from the Third Circuit, which resolved a Walker
Process claim in 2017. 882 F.3d at 1079 (citing In re
Lipitor, 885 F.3d at 146). That case involved non-patent
antitrust theories, however, so the Christianson rule
clearly allocated it to the regional circuit. 855 F.3d at
146. Another case was Seed Co. Ltd. v. Westerman,
832 F.3d 325 (D.C. Cir. 2016), a legal malpractice
case concerning the unsuccessful prosecution of a
patent. Not being a Walker Process case, Seed Co.
sheds no light on whether cases solely alleging fraud on
the PTO no longer belong in the Federal Circuit. The
court also cited one of our decisions, in which the court
understood us to hold that we “had appellate
jurisdiction in a case involving a state law claim based
on fraud on the PTO.” 882 F.3d at 1080 (citing
USPPS, Ltd. v. Avery Dennison Corp., 541 F. App’x
386, 390 (5th Cir. 2013)). On the contrary, USPPS
involved fraud claims against a business and its lawyers
following a failed patent prosecution, but it did not
involve fraud on the PTO itself. 541 F. App’x at 388௅90.
Finally, the panel relied on an Eleventh Circuit case,
MDS (Canada) Inc. v. Rad Source Techs., Inc., 720 F.3d
833 (11th Cir. 2013), that provides perhaps the strongest
support for its decision to transfer this case to us.
MDS was a breach of contract action concerning a
licensing agreement between Nordion and Rad
Source. Rad Source had three patents for blood
irradiation devices, which it licensed to Nordion, such
that Nordion would market and sell Rad Source’s RS
3000 device. Id. at 838. After a falling out, Rad
Source began to develop a new product based on the
same patents, the RS 3400, which it would sell

29a
independently of Nordion. Id. at 840. Litigation
ensued, with Nordion alleging that Rad Source had
breached
their
agreement
by
independently
developing a product covered by one of the patents
subject to the license agreement. Id. at 840. This
injected an infringement issue into the case.
During the litigation, Nordion learned that Rad
Source had allowed that patent to lapse. Id. at 840–
41. This gave Nordion an additional breach of
contract theory. Id.
The Eleventh Circuit ruled that it, and not the
Federal Circuit, had jurisdiction over the appeal.
720 F.3d at 841. It reasoned that the case presented
claims under state contract law and thus that the
district court had exercised diversity jurisdiction, not
original jurisdiction by virtue of a federal question or a
federal patent issue. Id. There was a question of
patent infringement in the case, but, like the patent
issues in Gunn, it was backward-looking and
insubstantial because it indisputably concerned a
since-expired patent. Id at 842௅43. Therefore, the
issue was not substantial enough to implicate the
district court’s “arising under” patent jurisdiction. Id.
The court then proceeded to resolve the patent
infringement issue. Id. at 846–48.
In the present case, the Federal Circuit noted the
Eleventh Circuit’s substantiality analysis in MDS and
said that it “confirm[ed] the correctness of [their]
decision” to transfer the case. 882 F.3d at 1079–80.
Judge Newman pointed out two distinctions: first, that
the patent at issue in MDS was expired, whereas KLA’s
patent in the present case remains operative; and

30a
second, that MDS did not address whether the Walker
Process element of fraud on the PTO implicates federal
patent law. 892 F.3d at 1201. As such, it is only so
helpful in figuring out whether Gunn requires the
present case to be transferred away from the Federal
Circuit.
D
To reject the Federal Circuit’s transfer decision,
we must not only disagree with its reasoning; we
must find it implausible. We do not take this step
lightly. With due regard for our colleagues on a
coordinate court, we nevertheless conclude that it is
implausible for us to resolve this appeal.
The initial question is whether Gunn meant to
change the Federal Circuit’s jurisdiction, in addition
to changing district courts’ jurisdiction. Assuming
that it did, we think that this appeal presents a
substantial question in the sense that the Supreme
Court has articulated.
Under Gunn, “[t]he
substantiality inquiry. . . [looks] to the importance of
the issue to the federal system as a whole.” 568 U.S. at
260. The Court in Gunn relied on two examples: Grable,
545 U.S. 308, and Smith v. Kansas City Title & Trust
Co., 255 U.S. 180 (1921). Grable concerned the validity
of a foreclosure and sale by the IRS of a delinquent
taxpayer’s property.
545 U.S. at 315.
Smith
concerned the constitutionality of certain federal
bonds, challenged by a shareholder seeking to block a
company from buying them. 255 U.S. at 201. Both
cases put the legality of a federal action in question, in
a manner that would have broader ramifications for
the legal system. By contrast, Gunn, as a legal

31a
malpractice case, entailed a “merely hypothetical,”
“backward-looking” review of a lawyer’s conduct
regarding a now-invalid patent. 568 U.S. at 261.
Nothing broader was at stake. Gunn also perceived
no precedential or preclusive implications if a state
court resolved the case.
This case concerns a patent that is currently
valid and enforceable, issued following a PTO
proceeding heretofore viewed as lawful. This litigation
has the potential to render that patent effectively
unenforceable and to declare the PTO proceeding
tainted by illegality. This alone distinguishes the
9
present case from Gunn.
The adjudication of this
Walker Process claim also implicates the interaction
between the PTO and Article III courts. The district
court’s acerbic statements about the PTO at
summary judgment point to the complexity of
relations between proceedings in federal court and
before the PTO.
Moreover, the fraud element of Xitronix’s claim can
be adjudicated only with reference to patent law.
Walker Process requires showing that a given
statement or omission was “material to patentability.”
C.R. Bard, Inc., 157 F.3d at 1364.
Here, that
requires reference to the bases of the ’441 patent’s
9

The Federal Circuit reasoned that any result would be “limited to
the parties and patent involved in this matter.” 882 F.3d at 1078.
That may prove to be true, but it is also likely true of many patent
cases. If this consideration alone sufficed to remove a case from
the Federal Circuit’s exclusive jurisdiction, there is no telling
where the line should properly be drawn.

32a
invalidation
(anticipation,
obviousness,
and
indefiniteness), the significance of non-statutory double
patenting rejections, the nature of prior art analysis by
patent examiners, and more. Xitronix’s theories of
fraud also put certain rules in issue. For example,
Xitronix bases some of its theories on the regulations
governing patent practitioners’ duties of candor to the
PTO. See 37 C.F.R. §§ 1.56, 10.85 (2013), 11.301. This
case therefore has the potential to set precedent on
the precise scope of those duties.
Compare
KangaROOS U.S.A., Inc. v. Caldor, Inc., 778 F.2d
1571, 1576 (Fed. Cir. 1985), with Young v. Lumenis,
Inc., 492 F.3d 1336, 1349 (Fed. Cir. 2007). Such
precedent can profoundly affect the future conduct
of practitioners before the PTO. Cf. Therasense,
649 F.3d at 1289–90 (explaining the ways that the
inequitable conduct doctrine had altered patent
practitioners’ behavior in PTO proceedings). To the
extent we or other circuit courts differ from the
Federal Circuit on these matters, we risk confusion
for current practitioners and forum-shopping by
future litigants.
The foregoing assumes that Gunn changed the
scope of the Federal Circuit’s jurisdiction, but there
are compelling reasons to think that it did not. Gunn
concerned the district courts’ jurisdictional statute,
§ 1338, not the Federal Circuit’s jurisdictional statute,
§ 1295. The Supreme Court never said it was changing
the Federal Circuit’s caseload. It spoke only to the
allocation of cases between the state and federal
systems, not to the allocation of cases between the
circuit courts. The Court has said elsewhere of

33a
Congress that it does not “hide elephants in
mouseholes.” Whitman v. Am. Trucking Ass’n, 531
U.S. 457, 468 (2001). We may say the same of the
Court. The elephant in the room, as it were, is the
propensity of this jurisdictional issue, if left variable,
to consume time, expense, judicial resources, and
legal certainty. This propensity is well known from
the history of federal-question jurisprudence, and
excising it has been the Court’s aim in Gunn, Grable, and
10
other decisions.
Given that history, we therefore
disagree that the Supreme Court inserted sub silentio
such a nettlesome issue into more cases than before.
The four-factor test applied in Gunn was developed
to sort cases between state and federal courts, and it is
not a tool for the task of sorting cases between the
circuits.
See Gunn, 568 U.S. at 258 (“[F]ederal
jurisdiction over a state law claim will lie if a federal
issue is: (1) necessarily raised, (2) actually disputed, (3)
10

The Wright & Miller treatise describes the “centrality”
requirement––“the requirement that the federal law injected by
the plaintiff’s well-pleaded complaint be sufficiently central to the
dispute to support federal question jurisdiction”––as “the most
difficult problem in determining whether a case arises under
federal law for statutory purposes.” Wright, Miller, et al., Federal
Practice & Procedure § 3562 (3d ed., 2018). “This problem has
attracted the attention of such giants of the bench as Marshall,
Waite, Bradley, the first Harlan, Holmes, Cardozo, Frankfurter,
and Brennan. It has been the subject of voluminous scholarly
writing. Despite this significant attention, however, no single
rationalizing principle will explain all of the decisions on
centrality.” Id. See also Grable, 545 U.S. at 321 (Thomas, J.,
concurring) (wondering if this inquiry “may not be worth the effort
it entails”).

34a
substantial, and (4) capable of resolution in federal court
without disrupting the federal-state balance approved
by Congress.”) (citing Grable, 545 U.S. at 314). As
noted, substantiality concerns “the importance of the
issue to the federal system as a whole.” Gunn, 568 U.S.
at 260. That concern, however, does not exist once the
choice is between two federal circuit courts. The
formulation could be tweaked to reflect the patentspecific context, but Gunn did not tell us to do so and
thereby displace Christianson’s time-tested rule.
The fourth element is even less suited to the task of
sorting cases between the circuits.
The choice
between circuits for a given appeal is irrelevant to
the congressionally-approved balance of state and
federal judiciaries. This is not to say that the Gunn–
Grable framework could not be adapted to the present
task, but the fact that adaptation would be necessary
militates against overreading Gunn.
Perhaps the strongest point in favor of
incorporating Gunn into cases like this one is that
Christianson linked § 1295 to § 1338 and § 1331.
Gunn construed the latter two statutes together, so,
under Christianson, Gunn’s holdings arguably are
automatically incorporated into § 1295.
When
Christianson was decided, § 1295 referred to § 1338
expressly. By the time of Gunn, § 1295 had been
amended to stand on its own; the phrase “any civil
action arising under . . . any Act of Congress relating to
patents” replaced the reference to § 1338. It is
therefore not automatic that a change to § 1338 entails a
change to § 1295.

35a
To be sure, § 1295 retains the “arising under”
formulation in common with the other two statutes,
and the Supreme Court prefers to construe like text
alike. It has refused to give identical terms the same
meaning, however, when contexts and considerations
differ. See, e.g., Wachovia Bank v. Schmidt, 546 U.S.
303, 315–17 (2006) (declining to read the term “located”
in venue and subject-matter jurisdiction rules in pari
materia because the rules serve purposes that are
too different).
Different considerations, including
constitutional and statutory imperatives, attend the
sorting of cases between state and federal systems
and among the federal circuits. All the federalism
concerns associated with the former have no bearing
on the latter, as explained. With those set aside, the
interests of uniformity and competent application of
the law, which failed to carry the day in Gunn, 568 U.S.
11
at 261–63, are left as determinative concerns.
11

We recognize that not all view these interests as worthwhile or
as achieved in practice by exclusive Federal Circuit jurisdiction.
For instance, uniformity maintained by a single court is the
inverse of percolation across multiple courts, a feature of our
judiciary we venerate. See Hon. Diane P. Wood, Keynote Address:
Is It Time to Abolish the Federal Circuit’s Exclusive Jurisdiction
in Patent Cases? 13 Chi.-Kent J. Intell. Prop. 1, 10 (2013)
(advocating “‘wide open spaces’ for development of patent law,
allowing new ideas to percolate and grow”); see also Paul R.
Gugliuzza, Patent Law Federalism, 2014 Wisc. L. Rev. 11, 37–42
(questioning “the assumption that exclusive patent jurisdiction,
coupled with the centralization of appeals in the Federal Circuit,
provides legal uniformity”); id at 49 (suggesting “legal uniformity
may not be as critical to the patent system as is assumed”). But
we take uniformity and competence through specialization to be
Congress’s aims in centralizing exclusive jurisdiction in the

36a
It would be quite reasonable to have a system
that imposes different restrictions at the entrance to
the federal system and at the fork in the road leading
to different circuits. The exclusionary Gunn–Grable
test, screening out most potential cases at the
entrance, protects federal district courts from
overload and reflects constitutional respect for state
courts and state prerogatives. As to those cases
that do make it into the federal system,
preservation of uniformity comes to the fore,
furthered by Christianson’s inclusionary test for
routing appeals to the Federal Circuit. Such a test
also promotes judicial economy by simplifying the
jurisdictional inquiry and avoiding the jurisdictional
ping-pong that Christianson aimed to end.
Supposing Gunn did not change the inquiry, the
answer to the present question is simple and settled.
According to Christianson, the Federal Circuit’s
jurisdiction includes “cases in which a well-pleaded
complaint establishes . . . that the plaintiff’s right to
relief necessarily depends on resolution of a substantial
question of federal patent law, in that patent law is a
necessary element of one of the well-pleaded claims.”
486 U.S. at 809. Patent law is a necessary element of
Walker Process claims. See Ritz Camera & Image,
700 F.3d at 506; Cipro, 544 F.3d at 1330 n.8. Because
this case presents a standalone Walker Process claim,
there are no non-patent theories in the case that would

Federal Circuit, hence we must adhere to that choice in our
analysis here.

37a
divert it to our court.
the Federal Circuit.

Consequently, it belongs in
IV

We undertake the preceding analysis with respect
for our judicial colleagues and gratitude for the
litigants’ patience over the long pendency of this
appeal. We nevertheless cannot conclude that the
Federal Circuit’s decision to transfer this case to us
was plausible, given the Supreme Court’s and
Congress’s decisions to the contrary. Accordingly, IT
IS ORDERED that this case is TRANSFERRED to
the United States Court of Appeals for the Federal
Circuit.

38a
Appendix D

United States Court of Appeals
for the Federal Circuit
_______________
XITRONIX CORPORATION,
Plaintiff-Appellant
v.
KLA-TENCOR CORPORATION, DBA KLATENCOR, INC., A DELAWARE CORPORATION,
Defendant-Appellee
_______________
2016-2746
_______________
Appeal from the United States District Court for
the Western District of Texas in No. 1:14-cv-01113-SS,
Judge Sam Sparks.
_______________
MICHAEL S. TRUESDALE, Law Office of Michael
S. Truesdale, PLLC, Austin, TX, argued for plaintiffappellant.
AARON GABRIEL FOUNTAIN, DLA Piper US
LLP, Austin, TX, argued for defendant-appellee. Also
represented by BRIAN K. ERICKSON, JOHN GUARAGNA.

39a
_______________
Before MOORE, MAYER, and HUGHES, Circuit
Judges.
MOORE, Circuit Judge.
ORDER
The only asserted claim in the underlying case is a
Walker Process monopolization claim based on alleged
fraud on the United States Patent and Trademark
Office (“PTO”). Both parties assert that the Federal
Circuit has appellate jurisdiction over this case. We
disagree. We therefore transfer the case to the United
States Court of Appeals for the Fifth Circuit, which has
appellate jurisdiction over cases from the District
Court for the Western District of Texas.
BACKGROUND
This appeal arises from a single cause of action filed
in the United States District Court for the Western
District of Texas: a Walker Process monopolization
claim under § 2 of the Sherman Act and §§ 4 and 6 of
the Clayton Act based on the alleged fraudulent
1
prosecution of a patent. J.A. 29, 63. Xitronix stated
the Federal Circuit had jurisdiction over this appeal
pursuant to 28 U.S.C. § 1295(a)(1) and Nobelpharma
AB v. Implant Innovations, Inc., 141 F.3d 1059, 1067–
1

In Walker Process Equipment, Inc. v. Food Machinery &
Chemical Corp., the Supreme Court held that enforcement of a
patent procured by fraud on the PTO may be a federal antitrust
violation under the Sherman Act, provided all other elements
necessary to such a claim are present. 382 U.S. 172, 176–77 (1965).

40a
68 (Fed. Cir. 1998), and KLA-Tencor (“KLA”) did not
dispute this assertion.
Before oral argument, we asked the parties to show
cause why we should not transfer this case to the
United States Court of Appeals for the Fifth Circuit for
lack of jurisdiction. The parties filed supplemental
briefs, asserting that the Federal Circuit has appellate
jurisdiction over this case. The briefs did not address
the impact of the Supreme Court’s decision in Gunn v.
Minton, 568 U.S. 251 (2013). At oral argument, we
ordered another round of supplemental briefing to
address jurisdiction and, in particular, Gunn v.
Minton.
DISCUSSION
This court has jurisdiction over the appeal of a
final decision of a district court “in any civil action
arising under . . . any Act of Congress relating to
patents or plant variety protection.”
28 U.S.C.
§ 1295(a)(1). Interpreting nearly identical language in
a previous version of our jurisdictional statute, the
Supreme Court stated our jurisdiction extends “only
to those cases in which a well-pleaded complaint
establishes either that federal patent law creates the
cause of action or that the plaintiff’s right to relief
necessarily depends on resolution of a substantial
question of federal patent law, in that patent law is
a necessary element of one of the well-pleaded
claims.” Christianson v. Colt Indus. Operating Corp.,
486 U.S. 800, 809 (1988) (emphasis added); see also
Holmes Grp., Inc. v. Vornado Air Circulation Sys.,
Inc., 535 U.S. 826, 834 (2002) (By using “arising
under” in our jurisdictional statute, “Congress

41a
referred to a well-established body of law that
requires courts to consider whether a patent-law claim
appears on the face of the plaintiff’s well-pleaded
complaint.”), superseded in part by statute, LeahySmith America Invents Act § 19(b), Pub. L. No. 11229, 125 Stat. 284 (2011) (amending 28 U.S.C.
§ 1295(a)(1) to add compulsory patent counterclaims).
In holding that our jurisdiction extends to cases
in which patent law is a necessary element of one
of the well-pleaded claims, the Supreme Court
explained that the well-pleaded complaint rule
“focuses on claims, not theories, . . . and just because
an element that is essential to a particular theory
might be governed by federal patent law does not
mean that the entire monopolization claim ‘arises
under’ patent law.” Christianson, 486 U.S. at 811. In
that case, the Court held that the Federal Circuit did
not have jurisdiction over the asserted monopolization
claim because it was based on several alleged
theories, and only in one of those theories was “the
patent-law issue [] even arguably essential.” Id.
More recently, in Gunn, the Supreme Court held
that a state law claim alleging legal malpractice in
the handling of a patent case does not “aris[e] under”
federal patent law for purposes of exclusive federal
jurisdiction under 28 U.S.C. § 1338(a). 568 U.S. at
258. Like the language of our jurisdictional statute,
§ 1338(a) states that federal district courts “shall
have original jurisdiction of any civil action arising
under any Act of Congress relating to patents, plant
variety protection, copyrights and trademarks.” 28
U.S.C. § 1338(a); compare § 1338(a), with § 1295(a)

42a
(“[T]he Federal Circuit shall have exclusive
jurisdiction . . . of an appeal from a final decision of
a district court . . . in any civil action arising under . . .
any Act of Congress relating to patents or plant
variety protection.”). The state malpractice claim
necessarily required application of patent law,
creating a patent law “case within a case,” and the
patent issue was actually disputed by the parties.
Gunn, 568 U.S. at 259. However, the Supreme Court
held that “the federal issue in this case is not
substantial” when analyzed with respect to the federal
system as a whole. Id. at 260. The resolution of the
patent “case within a case” would have no effect on
“the real-world result of the prior federal patent
litigation,” and allowing the state court to resolve the
underlying patent issue would not undermine the
uniform body of patent law because “federal courts are
of course not bound by state court case-within-a-case
patent rulings.” Id. at 261–62.
Even if a novel
question of patent law arose in such a situation, it
would still “at some point be decided by a federal
court in the context of an actual patent case, with
review in the Federal Circuit,” and even if the state
court’s adjudication was “preclusive under some
circumstances, the result would be limited to the
parties and patents that had been before the state
court.” Id. at 262–63. The Supreme Court explained,
“the possibility that a state court will incorrectly
resolve a state claim is not, by itself, enough to
trigger the federal courts’ exclusive patent
jurisdiction, even if the potential error finds its root
in a misunderstanding of patent law.” Id. at 263.

43a
The complaint in this case alleges that KLA
“engaged in exclusionary conduct by fraudulently
prosecuting to issuance the [’]260 patent” and its
conduct “was and is specifically intended to
monopolize and destroy competition in the market.”
J.A. 63. It alleges KLA intentionally made false
representations to the PTO on which the examiner
relied during prosecution.
On the face of the
complaint, no allegation establishes “that federal
patent law creates the cause of action.” Christianson,
486 U.S. at 809. The only question is whether the
monopolization allegation “necessarily depends on
resolution of a substantial question of federal patent
law, in that patent law is a necessary element of one
of the well-pleaded claims.” Id. Applying the wellpleaded complaint rule, in light of the Supreme
Court’s guidance and rationale in Gunn, we hold that
it does not.
There is nothing unique to patent law about
allegations of false statements.
Indeed, in
responding to the court’s order to show cause, the
parties both cited portions of the complaint that focus
on fraud and misrepresentation, not patent law. See,
e.g., Xitronix Supp. Br. (Sept. 26, 2017) at 4–5
(“KLA-Tencor
affirmatively
(and
repeatedly)
misrepresented the patentability of the claims it
sought, including making false representations about
what was taught by the relevant prior art.”); KLA
Supp. Br. (Sept. 26, 2017) at 8–9 (“KLA’s prosecution
and procurement of the [’]260 patent was undertaken
in bad faith in order to monopolize the . . . market.”).
We acknowledge that a determination of the alleged

44a
misrepresentations to the PTO will almost certainly
require some application of patent law. For instance,
the complaint alleges that KLA’s attorney “failed to
map” a one-to-one relationship between claim 1 of
the ’260 patent and another patent claim that had
previously been held invalid.
J.A. 42–43.
An
evaluation of that allegation may require analysis of
the claims and specifications and may require
application of patent claim construction principles.
But consistency with the federal question jurisdiction
statute requires more than mere resolution of a
patent issue in a “case within a case.” See Gunn, 568
U.S. at 257, 262–64; Christianson, 486 U.S. at 808–09.
Something more is required to raise a substantial
issue of patent law sufficient to invoke our
jurisdiction under 28 U.S.C. § 1295(a)(1). See Gunn,
568 U.S. at 264.
The underlying patent issue in this case, while
important to the parties and necessary for resolution
of the claims, does not present a substantial issue of
patent law. See id. at 263–64. There is no dispute
over the validity of the claims—patent law is only
relevant to determine if KLA intentionally made
misrepresentations.
Patent claims will not be
invalidated or revived based on the result of this
case.
Because Federal Circuit law applies to
substantive questions involving our exclusive
jurisdiction, the fact that at least some Walker
Process claims may be appealed to the regional
circuits will not undermine our uniform body of
patent law. See Golan v. Pingel Enter., Inc., 310
F.3d 1360, 1368 (Fed. Cir. 2002) (“Federal Circuit law

45a
applies to causes of action within the exclusive
jurisdiction of the Federal Circuit.”); Mars Inc. v.
Kabushiki-Kaisha Nippon Conlux, 24 F.3d 1368, 1371
(Fed. Cir. 1994) (Deference to regional circuit law “is
inappropriate when an issue involves substantive
questions coming exclusively within our jurisdiction,
the disposition of which would have a direct bearing
on the outcome.” (internal citations and quotation
marks omitted)). As in Gunn, even if the result of
this case is preclusive in some circumstances, the
result is limited to the parties and the patent involved
in this matter. 568 U.S. at 263.
The parties argue that although the cause of
action does not arise directly from Title 35, the
Walker Process claim at issue is one in which patent
law is a necessary element of the claim, citing
Nobelpharma and In re Ciprofloxacin Hydrochloride
Antitrust Litigation, 544 F.3d 1323 (Fed. Cir. 2008)
(“Cipro”). In Nobelpharma, we held that we apply
Federal Circuit law, not regional circuit law, to
Walker Process claims.
141 F.3d at 1068. We
reasoned:
Whether conduct in the prosecution of a patent
is sufficient to strip a patentee of its immunity
from the antitrust laws is one of those issues
that clearly involves our exclusive jurisdiction
over patent cases. It follows that whether a
patent infringement suit is based on a
fraudulently procured patent impacts our
exclusive jurisdiction.
Id. at 1067. This passage does not stand for the
proposition that the Federal Circuit retains exclusive

46a
jurisdiction of Walker Process claims. We made
these statements in the context of determining
whether regional circuit or Federal Circuit law applies
to Walker Process claims, not whether we have
jurisdiction over any such claims.
We further
indicated that our “conclusion applies equally to all
antitrust claims premised on the bringing of a patent
infringement suit.” Id. at 1068 (emphasis added).
Immediately following the remarks cited by the
parties, we reasoned that because Walker Process
claims are “typically raised as a counterclaim by a
defendant in a patent infringement suit,” and
“[b]ecause most cases involving these issues will
therefore be appealed to this court,” we should
decide such claims as a matter of Federal Circuit law.
Id. at 1067–68 (emphases added).
While we
recognized in Nobelpharma that most Walker
Process claims will be appealed to the Federal Circuit
due to the natural connection of such claims to our
exclusive jurisdiction over patent infringement claims,
we did not hold that all Walker Process claims must
be appealed to this court.
In Cipro, we explained in a footnote that the
Walker Process claim at issue in that case was
“subject to exclusive federal court jurisdiction under
28 U.S.C. § 1338(a) because the determination of
fraud before the PTO necessarily involves a
substantial question of patent law.” 544 F.3d at 1330
n.8 (citing Christianson, 486 U.S. at 808). The Cipro
appeal was originally transferred to the Federal
Circuit from the Second Circuit. Ark. Carpenters
Health & Welfare Fund v. Bayer AG, 604 F.3d 98,

47a
103 n.10 (2d Cir. 2010). We were not performing a de
novo analysis of jurisdiction in that case; we were
merely accepting a transfer from another circuit
court. Christianson, 486 U.S. at 819 (“Under law-ofthe-case principles, if the transferee court can find the
transfer decision plausible, its jurisdictional inquiry is
at an end.”). Jurisdiction was not disputed in Cipro,
and the quotation in footnote 8 is the extent of the
analysis regarding jurisdiction.
Both Nobelpharma and Cipro were decided before
the Supreme Court decided Gunn. To the extent
our prior precedent could be interpreted contrary to
Gunn, the
Supreme
Court
rendered
that
interpretation invalid.
While the parties argue
Gunn is inapplicable because it concerns district
court
jurisdiction
over
state
claims,
the
indistinguishable statutory language of §§ 1295 and
1338 requires our careful consideration of Gunn in
interpreting our jurisdictional statute. “[W]e have no
more authority to read § 1295(a)(1) as granting the
Federal Circuit jurisdiction over an appeal where the
well-pleaded complaint does not depend on patent
law, than to read § 1338(a) as granting a district court
jurisdiction over such a complaint.” Christianson, 486
U.S. at 814 (citing Pratt v. Paris Gas Light & Coke
Co., 168 U.S. 255, 259 (1897)); see also id. at 808–09
(noting “linguistic consistency” with the statute for a
district court’s federal question jurisdiction demands
a similar application for the Federal Circuit’s
“arising under” jurisdiction).
Decisions from our sister circuits confirm the
correctness of our decision today.
The Third

48a
Circuit recently called into question whether we
have exclusive jurisdiction over all Walker Process
claims in light of Gunn. In re Lipitor Antitrust Litig.,
855 F.3d 126, 146 (3d Cir. 2017). While recognizing
that Walker Process claims have been “considered by
courts to present a substantial question of patent
law,” the “substantiality of these theories may be
open to debate following Gunn v. Minton.” Id. at
145–46 (citing Nobelpharma and Cipro). In a case
involving a legal malpractice action arising out of
an unsuccessful application for a patent, the D.C.
Circuit, citing Gunn, held that it had appellate
jurisdiction because the case “involve[d] no forwardlooking questions about any patent’s validity, but
instead solely concern[ed] whether unsuccessful
patent applicants can recover against their
attorneys.” Seed Co. Ltd. v. Westerman, 832 F.3d 325,
331 (D.C. Cir. 2016). The Eleventh Circuit held that
a contract claim with an underlying patent
infringement issue did not implicate exclusive
Federal Circuit jurisdiction due to the fact-bound
nature of the question, the small likelihood that the
issue would impact future cases, and the weak
interest of the government in federal adjudication.
MDS (Can.) Inc. v. Rad Source Techs., Inc., 720 F.3d
833, 843 (11th Cir. 2013). And the Fifth Circuit held
that it had appellate jurisdiction in a case involving
a state law claim based on fraud on the PTO because
the underlying fraud allegation “d[id] not cause the
underlying hypothetical patent issues to be of
substantial importance to the federal system as a
whole” as required by Gunn. USPPS, Ltd. v. Avery
Dennison Corp., 541 F. App’x 386, 390 (5th Cir. 2013).

49a
Section 1295 defines the boundaries of our judicial
influence.
“The limits upon federal jurisdiction,
whether imposed by the Constitution or by Congress,
must be neither disregarded nor evaded.”
Owen
Equip. & Erection Co. v. Kroger, 437 U.S. 365, 374
(1978). We decline the parties’ invitation to so broadly
read our grant of jurisdiction under 28 U.S.C. § 1295.
Accordingly,
IT IS ORDERED THAT:
The case is transferred to the United States Court
of Appeals for the Fifth Circuit.
FOR THE COURT
February 9, 2018
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

50a
Appendix E

United States Court of Appeals
for the Federal Circuit
_______________
XITRONIX CORPORATION,
Plaintiff-Appellant
v.
KLA-TENCOR CORPORATION, DBA KLATENCOR, INC., A DELAWARE CORPORATION,
Defendant-Appellee
_______________
2016-2746
_______________
Appeal from the United States District Court for
the Western District of Texas in No. 1:14-cv-01113-SS,
Judge Sam Sparks.
_______________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
_______________
MICHAEL S. TRUESDALE, Law Office of Michael S.
Truesdale, PLLC, Austin, TX, filed a response to the
petition for plaintiff-appellant.

51a
AARON GABRIEL FOUNTAIN, DLA Piper US LLP,
Austin, TX, filed a petition for panel rehearing and
rehearing en banc for defendant-appellee.
Also
represented by BRIAN K. ERICKSON, JOHN GUARAGNA.
_______________
1

Before PROST, Chief Judge, NEWMAN, MAYER ,
LOURIE, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
NEWMAN, Circuit Judge, dissents from the denial of the
petition for rehearing en banc.
LOURIE, Circuit Judge, dissents from the denial of the
petition for rehearing en banc without opinion.
PER CURIAM.
ORDER
Appellee KLA-Tencor Corporation filed a petition
for panel rehearing and rehearing en banc. A response
to the petition was invited by the court and filed by
appellant Xitronix Corporation.
The petition for
rehearing and response were first referred to the panel
that heard the appeal, and thereafter, to the circuit
judges who are in regular active service. A poll was
requested, taken, and failed.
Upon consideration thereof,
IT IS ORDERED THAT:
1

Circuit Judge Mayer participated only in the decision on the
petition for panel rehearing.

52a
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 22, 2018.
FOR THE COURT
June 15, 2018
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

53a

United States Court of Appeals
for the Federal Circuit
_______________
XITRONIX CORPORATION,
Plaintiff-Appellant
v.
KLA-TENCOR CORPORATION, DBA KLATENCOR, INC., A DELAWARE CORPORATION,
Defendant-Appellee
_______________
2016-2746
_______________
Appeal from the United States District Court for
the Western District of Texas in No. 1:14-cv-01113-SS,
Judge Sam Sparks.
_______________
NEWMAN, Circuit Judge, dissenting from denial of the
petition for rehearing en banc.
I write because of the importance of this decision to
the judicial structure of patent adjudication, and the
future of a nationally consistent United States patent
law.
In this case, the complaint states that the asserted
violation of patent law may support violation of
antitrust law—a Walker Process pleading based on

54a
charges of fraud or inequitable conduct in prosecution
of the patent application in the Patent and Trademark
1
Office. The three-judge panel assigned to this appeal
held that the Federal Circuit does not have jurisdiction,
did not reach the merits, and transferred the appeal to
2
the Fifth Circuit. This jurisdictional ruling is contrary
to the statute governing the Federal Circuit, and
contrary to decades of precedent and experience.
Nonetheless, the en banc court now declines to review
this panel ruling.
I write in concern for the conflicts and uncertainties
created by this unprecedented change in jurisdiction of
the Federal Circuit and of the regional courts of appeal.
With the panel’s unsupported ruling that the Supreme
Court now places patent appeals within the exclusive
jurisdiction of the regional circuits when the pleading
alleges that the patent issue may lead to a non-patent
law violation, we should consider this change en banc.
1

In Walker Process Equipment, Inc. v. Food Machinery &
Chemical Corp., the Supreme Court held that the use of a patent
obtained through intentional fraud on the USPTO to create or
preserve a monopoly may expose the patent holder to antitrust
liability. 382 U.S. 172, 176–77 (1965). This court has summarized
that: “In order to prevail on a Walker Process claim, the antitrustplaintiff must show two things: first, that the antitrust-defendant
obtained the patent by knowing and willful fraud on the patent
office and maintained and enforced the patent with knowledge of
the fraudulent procurement; and second, all the other elements
necessary to establish a Sherman Act monopolization claim.”
TransWeb, LLC v. 3M Innovative Props. Co., 812 F.3d 1295, 1306
(Fed. Cir. 2016).

2

Xitronix Corp. v. KLA-Tencor Corp., 882 F.3d 1075 (Fed. Cir.
2018) (“Transfer Order”).

55a
The District Court’s Decision was Limited to Patent
3
Issues
The district court received a complaint for “Walker
Process antitrust claims based on KLA’s alleged
fraudulent procurement of a patent.” Dist. Ct. Dec. at
*1. Xitronix alleged that the “entire prosecution” of
the patent was tainted by fraud or inequitable conduct
in the Patent and Trademark Office. J.A. 54 (¶111);
J.A. 63 (¶145).
The panel now rules that the appealed issues of
fraud and inequitable conduct in obtaining the patent
do “not present a substantial issue of patent law,”
Transfer Order, 882 F.3d at 1078, and therefore that
the jurisdiction of the Federal Circuit, 28 U.S.C.
§ 1295(a)(1), does not apply to this appeal. The panel
states: “The underlying patent issue in this case, while
important to the parties and necessary for resolution of
the claims, does not present a substantial issue of
patent law,” and that “[s]omething more is required to
raise a substantial issue of patent law sufficient to
invoke our jurisdiction.” Transfer Order, 882 F.3d at
1078. We are not told what that “[s]omething more”
might be.
Neither party had questioned our appellate
jurisdiction. The panel raised the question sua sponte,
and now holds that a Supreme Court decision on state
court malpractice jurisdiction, Gunn v. Minton, 568
U.S. 251 (2013), removed Federal Circuit jurisdiction of
Walker Process patent appeals.
3

2016 WL 7626575 (W.D. Tex. Aug. 26, 2016) (“Dist. Ct. Dec.”).

56a
If the issues of inequitable conduct or fraud in
procuring the patent are no longer deemed to be a
substantial issue of patent law, the court should speak
en banc. Here, the district court reviewed the patent
prosecution, including the references and other
information relevant to examination for patentability;
reviewed the applicant’s arguments, the examiner’s
responses, and the examiner’s reasoning in allowing the
claims; and reviewed information from the concurrent
infringement litigation. Dist. Ct. Dec. at *5–8. The
district court wrote a detailed opinion, concluding that
fraud or inequitable conduct in patent prosecution had
not been shown. Id. at *9. This is the issue on appeal—
the only issue. Xitronix argues on this appeal that the
district court erred in its analysis and conclusion, and
that the patent is invalid or permanently
unenforceable.
The panel holds that patent validity and
enforceability are not substantial questions of patent
law, and therefore this case does not arise under the
patent law. The panel removes the Federal Circuit
from jurisdiction over appeals of Walker Process
claims, and challenges Federal Circuit jurisdiction of all
appeals where the complaint includes non-patent
issues. This is a vast jurisdictional change for the
regional circuits as well as the Federal Circuit.
The Federal Circuit Jurisdictional Statute
28 U.S.C. § 1295(a)(1). The United States Court
of Appeals for the Federal Circuit shall have
exclusive jurisdiction of an appeal from a final
decision of a district court . . . in any civil action

57a
arising under . . . any Act of Congress relating to
patents or plant variety protection.
The Supreme Court has summarized that for the
purpose of “desirable uniformity [] Congress created
the Court of Appeals for the Federal Circuit as an
exclusive appellate court for patent cases, observing
that increased uniformity would ‘strengthen the United
States patent system in such a way as to foster
technological growth and industrial innovation.”
Markman v. Westview Instruments, Inc., 517 U.S. 370,
390 (1996) (quoting H.R. Rep. No. 97–312, pp. 20–23
(1981)).
Precedent has construed the clause “civil action
arising under . . . any Act of Congress relating to
patents,” for the creation of the Federal Circuit as a
national court raised occasional questions of appellate
jurisdiction, as the courts sought to implement the
legislative purpose. Precedent considered specific
circumstances as they arose: for example, when the
district court action included issues in addition to
patent issues and the patent issues were not appealed;
when the patent issue arose only by counterclaim; when
the patent issue arose in a contract dispute; when the
patent issue arose in connection with various antitrust
claims; when the patent issue arose in a state court
action; when the patent issue was later removed from
the complaint; when the patent issue arose in a
malpractice action.
Thus, we and the Supreme Court and the regional
circuits have considered the boundaries of “civil action
arising under . . . any Act of Congress relating to
patents,” across an array of diverse circumstances.

58a
Those boundaries produced helpful guidance in special
or complex cases. However, the present case is simple,
for the issue of fraud or inequitable conduct in
prosecution of the patent application, the foundation of
Walker Process jurisprudence, is cemented in its
jurisdictional path to the Federal Circuit. If that path
is to be changed, such change warrants en banc action.
Supreme Court and Federal Circuit Precedent are
Contravened by the Panel Decision
The Supreme Court reviewed Federal Circuit
jurisdiction early in our existence, in a case where the
Seventh Circuit and the Federal Circuit each
“adamantly disavowed jurisdiction” and insisted that
the other was the correct appellate body. Christianson
v. Colt Indus. Operating Corp., 486 U.S. 800, 803 (1988).
In Christianson, a former employee of Colt asserted
Clayton Act and Sherman Act violations by Colt as well
as tortious interference with business relationships; the
employee requested damages and injunctive and
equitable relief. An antitrust allegation related to
patent validity. The district court decided for the
former employee on both the antitrust and tortious
interference claims, and Colt appealed to the Federal
Circuit. We held that we did not have jurisdiction
because the case did not arise under the patent law, and
transferred the appeal to the Seventh Circuit.
The Seventh Circuit stated that the Federal Circuit
was “clearly wrong,” and transferred the appeal back to
us. The Federal Circuit then decided the appeal “in the
interests of justice,” while protesting that we lacked
jurisdiction. Christianson, 486 U.S. at 806–07. The
Supreme Court then stepped in, and held that the case

59a
did not arise under the patent law, and that the appeal
belonged in the Seventh Circuit. The Court observed
that the phrase “arising under” the patent law
“mask[ed] a welter of issues regarding the interrelation
of federal and state authority and the proper
management of the federal judicial system.” Id. at 808
n.2 (quoting Franchise Tax Bd. of Cal. v. Constr.
Laborers Vacation Tr. for S. Cal., 463 U.S. 1, 8 (1983)).
The Court defined “arising under” patent law as
requiring:
a well-pleaded complaint [that] establishe[s]
either that federal patent law create[s] the cause
of action or that the plaintiff’s right to relief
necessarily depends on resolution of a
substantial question of federal patent law, in
that patent law was a necessary element of one
of the well-pleaded claims.
Id. at 809.
This standard has guided ensuing
jurisdictional determinations.
As applied to the case at bar, it is not disputed that
patent law is a “necessary element” of the antitrust
claim, for without determination that a patent was
obtained by fraud or inequitable conduct, there can be
no antitrust violation. While “a claim supported by
alternative theories in the complaint may not form the
basis for § 1338(a) jurisdiction unless patent law is
essential to each of those theories,” id. at 810, Xitronix
alleged a theory of antitrust violation based solely on
patent law. And, as Xitronix states, its purpose is to
invalidate the patent or render it unenforceable.
However, the panel rules that in Gunn v. Minton, 568

60a
U.S. 251 (2013), the Supreme Court changed Federal
Circuit jurisdiction such that only the regional circuits
now have jurisdiction over Walker Process appeals.
Gunn did not make the jurisdictional change
ascribed to it. In Gunn the Court held that the appeal
of a state law attorney malpractice case was properly in
the state court, although the malpractice charge related
to a patent issue. The Court observed that the patent
had been invalidated ten years earlier, and described
the patent aspect as “hypothetical” because whatever
the attorney’s malfeasance, there could be no rights in
this long-dead patent. Id. at 261 (“No matter how the
state courts resolve that hypothetical ‘case within a
case,’ it will not change the real-world result of the
prior federal patent litigation. Minton’s patent will
remain invalid.”).
In this context of federal-state authority, Gunn
discussed the requirements for federal “arising under”
jurisdiction. The Court stated, “a case can ‘arise under’
federal law in two ways. Most directly, a case arises
under federal law when federal law creates the cause of
action asserted.”
Id. at 257 (internal alteration
omitted). Even where federal law does not create the
cause of action, “federal jurisdiction over a state law
claim will lie if a federal issue is: (1) necessarily raised,
(2) actually disputed, (3) substantial, and (4) capable of
resolution in federal court without disrupting the
federal-state balance approved by Congress.” Id. at
258.
Gunn explained that the substantiality inquiry
looks “to the importance of the issue to the federal
system as a whole,” id. at 260, and that when the claim

61a
“finds its origins in state rather than federal law,” it
must be “capable of resolution in federal court without
disrupting the federal-state balance approved by
Congress.” Id. at 258. The Court’s discussion of
federal-state balance shows the ill fit between Gunn
and the panel’s application of Gunn to remove the
jurisdiction of the Federal Circuit over the issues of
fraud and inequitable conduct in patent prosecution
when an antitrust violation is asserted in the complaint.
I agree that “[w]hile not perfectly translatable to
the question before us, the[] guideposts [of Gunn] are
helpful.” Madstad Eng’g, Inc. v. USPTO, 756 F.3d
1366, 1370 (Fed. Cir. 2014). In Madstad, this court
considered how adjudication of the constitutional
challenge to the America Invents Act would affect the
“balance [of] matters committed to the jurisdiction of
this court and those committed to the regional circuits.”
Id. at 1371. The court stated that the “balance would
be upset by placing jurisdiction over interpretations of
the AIA and an assessment of its constitutional validity
in the hands of any circuit other than this one.” Id. The
same applies here, as the panel upsets the balance
established by Congress and moves to the regional
circuits the issue of fraud or inequitable conduct in the
PTO.
The case at bar is not a “hypothetical ‘case within a
case,’” as in Gunn, 568 U.S. at 261. The adjudication of
fraud in procuring the patent in the PTO is a
substantial issue of patent law. The panel states that
Gunn requires moving the appeal to the Fifth Circuit
because in the case at bar “[t]here is no dispute over
the validity of claims.” Transfer Order, 882 F.3d at

62a
1078. This is a puzzling statement, for that is the
dispute: Xitronix states that a finding of fraud or
inequitable conduct will “result in the ’260 patent
claims being rendered collaterally invalid and/or
unenforceable.” Reh’g Resp. Br. 9. The dispute is
indeed over the validity and enforceability of the
patent. The Court did not obliterate this jurisdiction of
the Federal Circuit in Gunn’s resolution of state court
malpractice jurisdiction.
I turn briefly to Federal Circuit precedent, for this
court has traditionally resolved antitrust aspects of
Walker Process appeals when raised in conjunction
with patent prosecution in the PTO.
The Panel Rejects Federal Circuit Precedent
In Nobelpharma AB v. Implant Innovations, Inc.,
the en banc court considered the question of whether
Federal Circuit or regional circuit law should apply to
the fraudulent “procuring or enforcing” aspect of a
Walker Process claim. 141 F.3d 1059, 1068 (Fed. Cir.
4
1998).
We held that: “Whether conduct in the
prosecution of a patent is sufficient to strip a patentee
of its immunity from the antitrust laws is one of those
issues that clearly involves our exclusive jurisdiction
over patent cases.” Id. at 1068. The en banc court
further explained that “we hereby change our
precedent and hold that whether conduct in procuring
or enforcing a patent is sufficient to strip a patentee of

4

This section of Nobelpharma was “considered and decided
unanimously by an in banc court.” 14 F.3d 1068 n.5.

63a
its immunity from the antitrust laws is to be decided as
a question of Federal Circuit law.” Id.
The panel’s ruling contradicts this en banc holding;
this alone requires en banc attention, for precedent
may not be changed by a panel, see South Corp. v.
United States, 690 F.2d 1368, 1370 n.2 (Fed. Cir. 1982)
(en banc).
In re Ciprofloxacin Hydrochloride Antitrust
Litigation was a transfer to the Federal Circuit from
the Second Circuit, because “the determination of fraud
before the PTO necessarily involves a substantial
question of patent law.” 544 F.3d 1323, 1330 & n.8
(Fed. Cir. 2008), abroated on other grounds by FTC v.
Actavis, 570 U.S. 136, 146–47, 160 (2013). Although
there were also non-patent issues in this litigation, the
Second Circuit and Federal Circuit agreed that the
patent issues were substantial and that the action arose
under the patent law, placing jurisdiction in the
Federal Circuit.
The panel now announces that Nobelpharma and
Ciprofloxacin were rendered “invalid” by Gunn.
Transfer Order, 882 F.3d at 1079. Gunn, a malpractice
case on the question of state-federal authority for
attorney discipline, made no such dramatic holding
pertaining to patent jurisdiction, even in dictum. The
panel’s discard of decades of precedent requires more
than silent inference from unrelated situations.
Other rulings on our jurisdiction are in tension with
the panel’s decision. In Jang v. Boston Scientific
Corporation, 767 F.3d 1334, 1337 (Fed. Cir. 2014), an
action for breach of contract, this court was clear in its

64a
rejection of the concept that Gunn had broadly
deprived the Federal Circuit of jurisdiction: “Here, by
contrast [with Gunn], the disputed federal patent law
issues presented by Jang’s well-pleaded complaint are
substantial and neither entirely backward-looking nor
hypothetical. In addition to infringement, the court
may be called upon to determine the extent to which
validity is made relevant to the resolution of the
breach-of-contract claim by the language of the
contract itself.” Id. at 1337. This court deemed patent
validity a “substantial” issue of patent law and
explained that appeal of the breach of contract claim
was properly to the Federal Circuit:
Permitting regional circuits to adjudicate
questions of patent validity, for example, could
result in inconsistent judgments between a
regional circuit and the Federal Circuit,
resulting in serious uncertainty for parties
facing similar infringement charges before
district courts within that regional circuit.
Maintaining Federal Circuit jurisdiction over
such contractual disputes to avoid such
conflicting rulings is important to “the federal
system as a whole” and not merely “to the
particular parties in the immediate suit.”
Id. at 1338 (quoting Gunn, 568 U.S. at 260).
By further example, in Vermont v. MPHJ
Technology Investments, LLC, this court observed that
the substantial question of patent law present in a
challenge to a Vermont consumer protection law was
not like the malpractice issue in Gunn, a “‘backwardlooking . . . legal malpractice claim’ that would be

65a
unlikely to have any ‘preclusive effect’ on future patent
litigation.” 803 F.3d 635, 646 (Fed. Cir. 2015) (quoting
Gunn, 568 U.S. at 261, 263). Such distinction from
Gunn also applies to the case at hand.
The panel’s ruling directly contradicts the court’s
prior holdings. A contradictory ruling by the panel is
improper, for “[t]his court has adopted the rule that
prior decisions of a panel of the court are binding
precedent on subsequent panels unless and until
overturned in banc.” Newell Cos. v. Kenney Mfg. Co.,
864 F.2d 757, 765 (Fed. Cir. 1988). In the vast number
of cases that have raised non-patent issues along with
patent issues, no precedent of the Supreme Court or
the Federal Circuit supports the panel’s ruling on the
panel’s facts.
The Panel Also Misconstrues Regional Circuit
Jurisdictional Rulings
The panel also cites decisions of other circuits to
support transfer of this appeal to the Fifth Circuit.
None of these cases, not their holdings nor their
procedural postures nor their reasoning, supports this
transfer.
In re Lipitor Antitrust Litigation, 855 F.3d 126 (3d
Cir. 2017), dealt with the antitrust aspects of reversepayments between the patent owner and generic
producers of the patented drug. The panel states that
the retention of jurisdiction in the Third Circuit
supports removal of the instant appeal from Federal
Circuit jurisdiction. Transfer Order, 882 F.3d at 1079.
The Lipitor litigation raised several antitrust aspects
unrelated to patent law. See 855 F.3d at 146 (“Here,

66a
plaintiffs could obtain relief on their section 2
monopolization claims by prevailing on an alternative,
non-patent-law theory . . . .”). The Third Circuit
distinguished this case from the Second Circuit’s
transfer to the Federal Circuit, stating: “But unlike the
Lipitor and Effexor appeals before us, the appeal
transferred from the Second Circuit to the Federal
Circuit involved stand-alone Walker Process claims.”
Id. at 148 (referencing In re Ciprofloxacin). The Third
Circuit observed that “Actavis teaches that reversepayment antitrust claims do not present a question of
patent law” and found patent law was not “necessary
for relief on every theory of liability supporting an
antitrust claim.” Id. at 146 (citing 570 U.S. at 156–58).
The court further stated that “courts must look to the
monopolist’s conduct taken as a whole rather than
considering each aspect in isolation.” Id. at 147
(quoting LePage’s Inc. v. 3M, 324 F.3d 141, 162 (3d Cir.
2003)). Finding “patent-law related theories” to be but
“aspects of an overall monopolistic scheme,” the Third
Circuit concluded that appellate jurisdiction was
properly found in that court. Id. at 147, 152.
In contrast, here Xitronix presented no
“alternative, non-patent-law theory” for its antitrust
claim. Lipitor, 855 F.3d at 146. The only basis of
Xitronix’s claim was the asserted fraud or inequitable
conduct in the PTO. The Lipitor ruling does not
support divesting the Federal Circuit of jurisdiction
over appeals where the potential antitrust issue
necessarily turns on finding fraud or inequitable
conduct in patent prosecution in the PTO.

67a
The panel also cites a Fifth Circuit case in
purported support of this jurisdictional change. In
USPPS, Ltd. v. Avery Dennison Corp., 541 F. App’x
386 (5th Cir. 2013) the issue was breach of fiduciary
duty, where a patent applicant sued its licensee and
attorneys on various grounds. There was no issue of
fraud or inequitable conduct in prosecution of the
patent application. The appeal bounced from the Fifth
Circuit to the Federal Circuit to the Supreme Court,
back to the Federal Circuit, and then back to the Fifth
Circuit, which ruled that any patent aspects were
“hypothetical” because resolution of the breach of
fiduciary duty question would not affect the validity or
enforceability of any patent. Id. at 389–90. Although
the panel cites this case as an example of regional
circuit jurisdiction of fraud in the PTO, there was no
issue of fraud in the PTO; the asserted fraud was
common law fraud based on contract and fiduciary
relationships.
The panel further cites MDS (Canada) Inc. v. Rad
Source Technologies, Inc., 720 F.3d 833 (11th Cir. 2013),
for the proposition that the regional circuit had
jurisdiction of the appeal of a “contract claim with an
underlying patent infringement issue.”
Transfer
Order, 882 F.3d at 1080. In that contract dispute, the
court stated that the case was for breach of a license
agreement, and that the question of infringement was
not substantial because the patent had expired and
“resolution of this issue is unlikely to impact any future
constructions of claims.” MDS, 720 F.3d at 842. The
circuit construed the contract and the licensed patents,
considered the asserted breaches such as failure to pay

68a
the maintenance fees, and certified other contract
issues to the Florida Supreme Court. The appeal
before us is not such a complex case—the appeal turns
on the issue of patent prosecution conduct in the PTO,
for which appellate jurisdiction is in this court.
Another regional circuit case on which the panel
relies is Seed Co. Ltd. v. Westerman, a malpractice case
that was appealed to the D.C. Circuit. 832 F.3d 325
(D.C. Cir. 2016). The asserted malpractice was the
attorney’s failure to successfully prosecute an
application before the PTO. The panel correctly states
that the D.C. Circuit had “appellate jurisdiction
because the case ‘involve[d] no forward looking
questions about any patent’s validity, but instead solely
concern[ed] whether unsuccessful patent applicants can
recover against their attorneys.’” Transfer Order, 882
F.3d at 1079 (quoting Seed, 832 F.3d at 331). The
Federal Circuit had several years earlier reviewed the
patent questions in Seed, in an interference proceeding.
As in Gunn, no patent rights were involved in or
affected by this malpractice action. This case does not
support the panel’s holding that the Federal Circuit
does not have jurisdiction over cases based on fraud or
inequitable conduct in the PTO.
Until today, there has been stability in the
jurisdictional path of Walker Process appeals. No
precedent deprives the Federal Circuit of jurisdiction
of appeals that turn on issues of fraud or inequitable
conduct in patent prosecution. These issues are not
only substantial, but because they determine patent
enforceability and validity, they are fundamental.

69a
To summarize why en banc review of this panel
decision is appropriate and necessary:
1) The panel, at its own initiative, raised the
question of our jurisdiction of Walker Process appeals.
Although supplemental briefing was requested of the
parties, the ramifications of this jurisdictional change
were not exposed in public debate.
2) Precedent is contrary to the panel’s rejection of
this appeal. Neither Gunn nor any other precedent
supports the panel’s ruling that claims turning on
patent invalidity and unenforceability due to fraud or
inequitable conduct in patent prosecution do not “arise
under” the patent law.
3) The reason for formation of the Federal Circuit
as a national court was to stabilize the patent law and
provide uniformity throughout the nation. Patent
prosecution is a complex and specialized interaction
between inventors and examiners. This ruling will
require each regional circuit to review patent
prosecution in the PTO, creating regional precedent
and forum-shopping.
4) Appellate review of cases that arise under the
patent law is our assignment and our obligation. The
Supreme Court did not silently divest this court of the
jurisdiction that was established in 1982.
If the court now wishes to remove itself from
jurisdiction of cases that may involve issues in addition
to patent issues, we should make this change en banc.
From the court’s denial of en banc rehearing, I
respectfully dissent.

70a
Appendix F
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION

XITRONIX CORPORATION,
Plaintiff,
-vsKLA-TENCOR CORPORATION,
Defendant. |

CAUSE NO.:
A-14-CA-01113-SS

ORDER

BE IT REMEMBERED on the 7th day of April
2016, the Court held a hearing in the above-styled
cause, and the parties appeared by and through
counsel. Before the Court are Defendant KLA-Tencor
Corporation (KLA)’s Motion for Summary Judgment
[#56], Plaintiff Xitronix Corporation (Xitronix)’s
Response [#57] in opposition, KLA’s Reply [#58] in
support, Xitronix’s Memorandum [#71] in opposition,
KLA’s Memorandum [#73] in support, and KLA’s
Notice of Supplemental Authority [#77]. Having
considered the documents, the file as a whole, and the
governing law, the Court now enters the following
opinion and order.
Background
This case involves Walker Process antitrust claims
based on KLA’s alleged fraudulent procurement of a
patent. KLA is the assignee of the following related

71a
patents: (1) United States Patent No. 8,817,260 (the
’ 260 Patent); (2) United States Patent No. 7,646,486
(the ’ 486 Patent); and (3) United States Patent No.
7,362,441 (the ’441 Patent). The ’ 260 Patent is a
continuation of the ’486 Patent, which is a
continuation of the ’ 441 Patent, which itself was a
continuation of an earlier patent, United States
Patent No. 7,126,690 (the ’690 Patent). The patented
technology involves a system which provides high
resolution,
non-destructive
evaluation
of
semiconductor wafers as they pass through various
semiconductor manufacturing stages.
Xitronix’s Walker Process claims represent the
third installment in a trilogy of lawsuits between the
parties. In this lawsuit, Xitronix alleges KLA, after
having its previous patent (the ’441 Patent) declared
invalid in a final judgment after a trial on the merits
in this Court, obtained a new patent (the ’ 260 Patent)
covering the same technology through fraudulent
representations and omissions about the state of the
prior art. According to Xitronix, KLA’s fraudulent
procurement of the ’260 Patent “was, and is,
specifically intended to monopolize and destroy
competition in the market for dopant activation
metrology, a market currently valued at approximately
$650 million.” Compl. [#1] ¶12. Xitronix represents
KLA’s Therma-Probe 680 and Xitronix’s XP700
system are the only two products in the market, and
KLA, by obtaining the ’260 Patent, has the power to
exclude Xitronix from manufacturing or selling its
product. Id. ¶ 13.

72a
Before turning to the substance of KLA’s present
motion for summary judgment, the Court provides a
brief description of the parties’ litigious history.
I.

The First Two Lawsuits

First, in September 2008, Xitronix sued KLA in
this Court, asserting a declaratory judgment of noninfringement with respect to the ’ 441 Patent and its
parent, the ’ 690 Patent. See Compl. [#1] ¶ 1, Xitronix
Corp. v. KLA-Tencor Corp., No. 1:08-CV-723-SS (W.D.
Tex. Jan. 31, 2011) (the First Lawsuit). KLA had
apparently informed Xitronix through numerous
letters of its belief Xitronix was engaged in ongoing
infringement of KLA’s patents, prompting Xitronix
to respond with its non-infringement suit. Id. at 4–9.
In November 2010, the parties tried the case to a jury,
which returned a verdict finding Xitronix had
infringed claim 7 of the ’ 441 Patent but had not
infringed any other claims. Order of Jan. 31, 2011
[#210] at 1, the First Lawsuit. The jury also found,
however, that claim 7 of the ’441 Patent was invalid
as anticipated by prior art. Id. at 1–2. The jury
further found all of the asserted claims—claims 7,
9, 11, and 12—of the ’ 441 Patent were invalid due
to obviousness. Id. at 2. Post-trial, the Court
ordered the parties to brief whether the claims at
issue were also invalid due to indefiniteness, and the
Court ultimately held the claims were indefinite. Id.
at 3, 5–9. Additionally, the Court held there was
ample evidence to support the jury’s verdict of
invalidity based on anticipation and obviousness.
Id. at 10–12. KLA did not appeal the final judgment.

73a
Second, in March 2011, Xitronix filed another
lawsuit against KLA in state court, alleging businesstort claims for damages under Texas law arising from
KLA’s publicized patent-infringement allegations,
which was subsequently removed by KLA to this
Court. See Notice Removal [#1], Xitronix Corp. v.
KLA-Tencor Corp., No. 1:11-CV-358-SS (W.D. Tex.
July 7, 2011) (the Second Lawsuit). Xitronix’s state
law claims were based on KLA’s conduct in and
surrounding the First Lawsuit, including: “(1) KLA’s
alleged knowing false statements of infringement of
the ’ 411 Patent by Xitronix; and (2) KLA’s alleged
bad faith use of litigation to impair Xitronix’s
business operations.” Order of July 7, 2011 [#16] at 2,
the Second Lawsuit. Xitronix moved to remand, and
the Court granted the motion because the only
substantial question of patent law (which Xitronix
alleged provided the basis for removal) was already
decided in the First Lawsuit. Id. On remand, the
state court, according to Xitronix’s allegations,
granted summary judgment in favor of KLA for
unspecified reasons, and on appeal, the Third District
Court of Appeals of Austin affirmed the summary
judgment on res judicata grounds, holding Xitronix’s
antitrust claims arose out of the same nucleus of
operative facts underlying its claims in the First
Lawsuit. Compl. [#1] ¶ 34. The Supreme Court of
Texas denied Xitronix’s petition for review of that
decision. Xitronix Corp. v. KLA-Tencor Corp., No. 140736
(Tex.
Feb.
27,
2015),
available
at
http://www.txcourts.gov/supreme/
orders-opinions/
2015/february/february-27-2015/.

74a
II.

The Current Lawsuit

In the current lawsuit, Xitronix asserts Walker
Process antitrust claims based on KLA’s alleged
fraudulent procurement of the ’ 260 Patent. KLA
obtained the ’ 260 Patent over a period of years
involving back-and-forth exchanges with the PTO.
KLA filed its patent application for the ’ 260 Patent
on November 11, 2009, and on February 7, 2011,
approximately one week after the Court’s entry of the
final judgment in the First Lawsuit but before being
informed of the final judgment, the examiner allowed
KLA’s pending claims in the ’260 Patent, claims which
Xitronix contends are essentially identical to the
1
invalidated patent claims of the ’ 441 Patent. See
Resp. [#57] at 8.
On February 10, 2011, KLA’s patent prosecution
attorney, Michael Stallman, did not allow the ‘260
Patent to proceed to issuance, and instead submitted
a request for a continued examination (RCE) of the
‘260 Patent and an information disclosure statement
(IDS) listing an “Executed ORDER from the United
States District Court for the Western District of
Texas, Austin Division, Case No. A-08-CA-723-SS,

1

On July 29, 2015, KLA disclaimed—without explanation—the
relevant ’260 Patent claims with the PTO. Reply [#17-1] Ex. 1
(Disclaimer of Claims 1, 3, 4, and 5 of the ’260 Patent). As this
Court previously held, though “there would appear to be no threat
of ongoing harm, [] liability and damages must still be litigated.”
Order of Aug. 24, 2015 [#20] at 14.

75a
2

dated January 31, 2011, 13 pages in length.” Mot.
Summ. J. [#56-3] Ex. 3 (IDS) at 94. Xitronix faults
Stallman for failing to explain to the examiner how
this Court’s January 31, 2011 Order related to the
then-pending ’ 260 Patent; how the then-pending
claims were identical to, or broadened from, claims in
the ’441 Patent held invalid as a final judgment in the
First Lawsuit; and how, as a result, the thenpending claims were unpatentable. Id. Xitronix also
faults Stallman for failing to inform the PTO that
KLA did not appeal the final judgment in the First
Lawsuit. Id.
On July 12, 2013, a newly appointed examiner
initialed the final judgment in the First Lawsuit and
Xitronix’s litigation briefs as “considered.” IDS at 94.
On July 25, 2013, the examiner issued an initial
rejection of the claims in the continuing ’ 260 Patent
application. Resp. [#57-9] Ex. 9 (July 25, 2013 Office
Action) at 3–8. The examiner concluded the claims
were
obvious
over
other
art,
specifically
“ Rosencwaig in view of Opsal.” Id. at 6. Opsal
disclosed a Therma Probe system for evaluating
semiconductor samples, while Rosencwaig disclosed a
similar device for evaluating biological samples,
leading the examiner to conclude it would have been
obvious to use the wavelengths disclosed in
Rosencwaig to evaluate semiconductor samples. Id.

2

Stallman previously disclosed the jury verdict to the PTO on
November 18, 2010, and argued against the jury’s findings. Resp.
[#57-7] Ex. 7 (Amendment in Response to Non-Final Office Action)
at 5.

76a
at 6–9. The examiner further rejected the term
“ optimize” in the claims as indefinite, and instead
interpreted the claims as using the term “maximize.”
Id. at 2.
On October 8, 2013, Stallman amended claims 3
and 10 to change the term “ optimize” to “maximize.”
Resp. [#57-10] Ex. 10 (Oct. 8, 2013 Amendment) at
2–3, 5. Stallman also responded to the examiner’s
initial rejection of the claims based on “ Rosencwaig
in view of Opsal,” arguing the claims were not
obvious over prior art. In doing so, Stallman made
the following statement, which Xitronix insists
constitutes a material misrepresentation in light of
the final judgment in the First Lawsuit:
“As discussed below, the prior art fails to
teach [the 360 to 410 nm] wavelength range for
use in semiconductor samples when performing
modulated optical reflectivity measurements.”
Id. at 6.
Stallman proceeded to discuss the
Rosencwaig, Opsal, Alpern and Borden prior art
references. Id. at 6–8.
On January 2, 2014, the examiner accepted
Stallman’s amendments to claims 3 and 10, but
nevertheless issued a final rejection of the claims,
again concluding the claims were unpatentable as
obvious over Rosencwaig and Opsal. Resp. [#57-11]
Ex. 11 (Jan. 2, 2014 Office Action) at 5–12.
On March 12, 2014, Stallman submitted another
RCE of the ‘260 Patent. He canceled the “device”
claims 1 through 5 in favor of the method claims 6 to
12, and substituted the term “silicon semiconductor

77a
sample” for the term “ semiconductor sample” in
method claim 6. Resp. [#57] Ex. 12 (Mar. 12, 2014
Amendment) at 2–4. Stallman again responded to
the examiner’s “obviousness” rejection, asserting the
following statements which Xitronix claims constitute
material misrepresentations because they directly
contradict the final judgment in the First Lawsuit:
“As discussed below, the prior art fails to
teach a
method of
analyzing silicon
semiconductor samples using [the 360 to 410
nm] wavelength range.”
“The firs.t point to note is that none of the
prior art related to measuring the modulated
reflectivity on silicon semiconductor samples
taught the claimed probe beam wavelength of
360 to 410 nm.”
“To combat this omission the examiner relies
on a single patent to Rosencwaig that relates
to the measurement of the biological tissue.”
“However, . . . one skilled in the art . . . would
not assume that the methods described in
Rosencwaig would be suitable for such
samples, particularly when the prior art relating
to semiconductor samples teach different
wavelengths.”
“[A]mended method claim 6 is not taught or
suggested by a combination of Rosencwaig and
Opsal.”
Id. at 4–6.

78a
Upon review, the examiner found Stallman’s
arguments “ persuasive” and concluded “ the pnor art
of record fails to disclose or render obvious a method
for evaluating a silicon semiconductor sample . . .
wherein the wavelength is between 360 and 410 nm.”
Resp. [#57] Ex. 13 (April 22, 2014 Notice of
Allowability) at 3. The ‘260 Patent ultimately issued
on August 26, 2014.
In support of its Walker Process claims, Xitronix
contends Stallman repeatedly represented to the
examiner that the prior art relating to semiconductor
samples did not teach the 360 to 410 nm wavelength
range, an argument previously rejected by the jury
and this Court in the First Lawsuit. Moreover,
Xitronix claims Stallman deliberately omitted material
facts by failing to disclose that KLA did not appeal
the judgment in the First Lawsuit and by failing to
explicitly tell the examiner the claims presented in
the ’ 260 Patent mirror the claims invalidated in the
First Lawsuit.
But for these affirmative
misrepresentations and deliberate omissions, Xitronix
argues, the examiner would not have allowed the
patent.
KLA moves for summary judgment, arguing
Xitronix cannot establish two elements of a Walker
Process claim:
(1) Stallman made affirmative
misrepresentations or deliberate omissions in
prosecuting the ’ 260 Patent, and (2) the ’ 260 Patent
would not have issued but for Stallman’s alleged
misrepresentations and omissions. The parties fully
briefed the motion, and it is now ripe for the Court’s
consideration.

79a
Analysis
I.

Legal Standard

Summary judgment shall be rendered when the
pleadings, the discovery and disclosure materials on
file, and any affidavits show there is no genuine
dispute as to any material fact and the moving party
is entitled to judgment as a matter of law. FED. R.
CIV. P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317,
323–25 (1986); Washburn v. Harvey, 504 F.3d 505, 508
(5th Cir. 2007). A dispute regarding a material fact is
“genuine” if the evidence is such that a reasonable
jury could return a verdict in favor of the nonmoving
party. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). When ruling on a motion for summary
judgment, the court is required to view all inferences
drawn from the factual record in the light most
favorable to the nonmoving party. Matsushita Elec.
Indus. Co. v. Zenith Radio, 475 U.S. 574, 587 (1986);
Washburn, 504 F.3d at 508. Further, a court “may not
make credibility determinations or weigh the evidence”
in ruling on a motion for summary judgment. Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150
(2000); Anderson, 477 U.S. at 254–55.
Once the moving party has made an initial
showing that there is no evidence to support the
nonmoving party’s case, the party opposing the
motion must come forward with competent summary
judgment evidence of the existence of a genuine fact
issue. Matsushita, 475 U.S. at 586. Mere conclusory
allegations are not competent summary judgment
evidence, and thus are insufficient to defeat a motion
for summary judgment. Turner v. Baylor Richardson

80a
Med. Ctr., 476 F.3d 337, 343 (5th Cir. 2007).
Unsubstantiated assertions, improbable inferences,
and unsupported speculation are not competent
summary judgment evidence. Id. The party opposing
summary judgment is required to identify specific
evidence in the record and to articulate the precise
manner in which that evidence supports his claim.
Adams v. Travelers Indem. Co. of Conn., 465 F.3d
156, 164 (5th Cir. 2006). Rule 56 does not impose a
duty on the court to “ sift through the record in
search of evidence” to support the nonmovant’s
opposition to the motion for summary judgment. Id.
“Only disputes over facts that might affect the
outcome of the suit under the governing laws will
properly preclude the entry of summary judgment.”
Anderson, 477 U.S. at 248. Disputed fact issues that
are “ irrelevant and unnecessary” will not be
considered by a court in ruling on a summary
judgment motion. Id. If the nonmoving party fails to
make a showing sufficient to establish the existence
of an element essential to its case and on which it
will bear the burden of proof at trial, summary
judgment must be granted. Celotex, 477 U.S. at
322–23.
II.

Application

To prevail on a Walker Process claim, a plaintiff
must show: (1) a false representation or deliberate
omission of a fact material to patentability, (2)
made with the intent to deceive the patent
examiner, (3) on which the examiner justifiably
relied in granting the patent, (4) but for which
misrepresentation or deliberate omission the

81a
patent would not have been granted (“but­for”
materiality), and (5) the “necessary additional
elements” of an underlying antitrust violation.
Nobelpharma AB v. Implant Innovations, Inc., 141
F.3d 1059, 1069–70 (Fed. Cir. 1998); C.R. Bard, Inc.
v. M3 Sys., Inc., 157 F.3d 1340, 1364 (Fed. Cir.
1998). The party asserting fraud on the PTO must
show by clear and convincing evidence there was
an intentional misrepresentation or a withholding of
a material fact from the PTO. Vandenberg v.
Dairy Equip. Co., 740 F.2d 1560, 1568 (Fed. Cir.
1984).
KLA argues it is entitled to summary
judgment because Xitronix cannot show—as the
Federal Circuit requires—that (1) the ’260 Patent
was
obtained
through
affirmative
misrepresentations or deliberate omissions, and (2)
the ’260 Patent would not have issued but for
Stallman’s
alleged
misrepresentations
or
omissions . The Court considers each of these
arguments in turn.
A.

Affirmative Misrepresentations or Deliberate
Omissions

Xitronix presents two theories for fraud on the
PTO:
(1)
Stallman
made
affirmative
misrepresentations to the PTO regarding the
status of the prior art, and (2) Stallman deliberately
failed to inform the examiner of the significance of
the relationship between the pending claims of the
’ 260 Patent and the invalidated claims of the ’ 441
Patent.

82a
i. Affirmative Misrepresentations
Xitronix’s first theory for fraud on the PTO is
that Stallman made an affirmative misrepresentation
regarding the status of the prior art. Two filings by
Stallman are at issue: his proposed amendment on
October 8, 2013, and his RCE of the ’ 260 Patent on
March 12, 2014. To determine whether a genuine
issue of material fact exists as to whether Stallman’s
remarks constitute affirmative misrepresentations, the
Court must determine (1) whether the remarks were
inaccurate, and (2) whether any inaccurate remarks
were factual or constituted attorney argument. See
WesternGeco L.L.C. v. ION Geophysical Corp., No.
4:09-cv-1827, 2012 WL 567430, at *18 (S.D. Tex. Feb.
21, 2012) (discussing whether alleged material
misrepresentations constituted inequitable conduct).
In his initial rejection of ’260 Patent claims, the
examiner explained the claims are unpatentable as
obvious over Rosencwaig and Opsal. In response,
Stallman filed a proposed amendment on October 8,
2013, in which he stated:
“As discussed below, the prior art fails to
teach [the 360 to 410 nm] wavelength range
for use in semiconductor samples when
performing modulated optical reflectivity
measurements.”
Oct. 8, 2013 Amendment at 6.
Xitronix
claims
this
is
an
affirmative
misrepresentation of material fact, because it directly
contradicts the final judgment in the First Lawsuit
which invalidated the same claims in the ’441 Patent

83a
based on a finding of obviousness. However, when
read in the context of Stallman’s subsequent
statements, the Court finds this statement does not
constitute a misrepresentation, but instead an
accurate description of the four prior art references—
Rosencwaig, Opsal, Alpern, and Borden—which
served as the basis of the examiner’s initial rejection
of ’ 260 Patent.
For instance, following this statement, Stallman
introduced Rosencwaig and Opsal as the relevant
prior art under discussion, and proceeded to explain
how the Rosencwaig and Opsal references do not
disclose the invention. Id. at 7–8. Stallman concluded
the section by stating,
“Based on the above, it is respectfully
submitted that independent claims 1 and 6 are
not obvious based on a combination of
Rosencwaig and Opsal.”
Id. at 8 (emphasis added).
Stallman then addressed two other prior art
references, Alpern and Borden, and concluded:
“[N]either Alpern nor Borden overcome the
deficiencies of the primary references in
rendering obvious applications’ invention as
defined by the claims.”
Id.
The fact that Stallman addressed Alpern and
Borden separately suggests his earlier statement—
that “the prior art fails to teach [the 360 to 410 nm]
wavelength range for use in semiconductor samples

84a
when performing modulated optical reflectivity
measurements”—referred only to Rosencwaig and
Opsal and not all the prior art in the world.
Moreover, the examiner subjectively understood it as
such, because in his January 2, 2014 Office Action,
the examiner wrote, “ [Stallman] appears to argue
that reference Rosencwaig doesn’t teach the claimed
probe wavelength range.” Jan. 2, 2014 Office Action
at 6.
Had the examiner understood Stallman’s
statement to refer to all prior art references, he
would not have limited his response regarding the
obviousness of the pending claims to one prior art
reference.
Stallman’s remarks in the RCE filed on March 12,
2014 are substantially similar to the remarks
contained in the amendment filed on October 8, 2013:
“As discussed below, the prior art fails to teach
a method of analyzing silicon semiconductor
samples using [the 360 to 410 nm] wavelength
range.”
“The first point to note is that none of the prior
art related to measuring the modulated
reflectivity on silicon semiconductor samples
taught the claimed probe beam wavelength of
360 to 410 nm.”
Id. at 4.
Although these statements appear broad when
read in isolation, Stallman made the following
statements which suggest these remarks—when read
in context—refer only to Rosencwaig and Opsal, and
not all prior art:

85a
“To combat this omission the examiner relies
on a single patent to Rosencwaig that relates
to the measurement of the biological tissue.”
“[O]ne skilled in the art . . . would not assume
that the methods described in Rosencwaig
would
be suitable for such samples,
particularly when the prior art relating to
semiconductor
samples
teach
different
wavelengths.”
“Based on the above, it is respectfully
submitted that amended method claim 6 is not
taught or suggested by a combination of
Rosencwaig and Opsal.”
Id. at 4–6 (emphasis added). Stallman addressed the
Alpern and Borden references separately, which again
confirms his previous statements referred only to
Rosencwaig and Opsal.
However, even assuming these statements
misstated the state of the prior art, Stallman’s
remarks may fairly be viewed as attorney argument
and not factual misrepresentations.
The law
prohibits a prosecuting attorney from misrepresenting
material facts; it does not prevent an attorney from
making arguments in favor of patentability. Indeed,
where a prior art reference has been submitted to the
examiner, the examiner is free to reach his own
conclusion and does not have to solely rely on the
prosecuting attorney’s arguments. See Young v.
Lumenis, Inc., 492 F.3d 1336, 1348 (Fed. Cir. 2007);
lnnogentics v. Abbott Laboratories, 512 F.3d 1363,
1379 (Fed. Cir. 2008). For instance, in Young, an

86a
attorney prosecuting
a patent
made three
misstatements regarding prior art, but the Federal
Circuit nevertheless concluded these misstatements
were not affirmative misrepresentation of material
fact, because the examiner “had the [prior art
reference] to refer to during the reexamination
proceeding and initially rejected claim 1 based on that
reference.” Id. at 1349. According to the Federal
Circuit, the prosecuting attorney “ argued against the
rejection, and the examiner was free to reach his own
conclusions and accept or reject [the attorney’s]
arguments.”
Id.
Because the misstatements
“ consist[ed]
of attorney
argument
and an
interpretation of what the prior art discloses,” they
did not constitute affirmative misrepresentations of
material fact. Id.
In Innogenetics, the plaintiff sought to patent a
method for genotyping the hepatitis C virus. 512
F.3d at 1368. Prior to applying for the patent in the
United States, the plaintiff filed for a patent in the
European Patent Office (EPO), and identified a prior
art reference, the Cha PCT application, as the
“closest prior art.” Id. at 1378. Upon review, the
EPO concluded certain claims in the pending patent
were not novel in light of the Cha PCT application.
Id. at 1379. The plaintiff thereafter amended the
claims with a disclaimer that they were “ amended to
disclaim the teaching of [the Cha PCT application].”
Id. In applying for an U.S. patent, the plaintiff
submitted as prior art references to the PTO both
the Cha PCT application and an internal search
report which marked the Cha PCT application as

87a
“ problematic” for the EPO. Id. Nevertheless, in his
accompanying prior art statement, the prosecuting
attorney stated “the references do not relate to the
invention and, therefore, further discussion of the
same is not necessary.” Id. The Federal Circuit
concluded the prosecuting attorney’s statement did
not
constitute
a
material
omission
or
misrepresentation.
Id.
Because the Cha PCT
application “had been submitted for the patent
examiner to examine herself, [the examiner] was free
to accept or reject the patentee’s arguments
distinguishing its invention from the prior art.” Id.
Stallman’s statements regarding the state of
prior art—even if construed as misstatements—
were made after the final judgment in the First
Lawsuit had been submitted to the examiner in an
IDS less than two weeks after it was entered and
more than three years before the patent ultimately
issued. As in Young and Innogentics, the prior art
was disclosed to the examiner, who was then free to
reach his own conclusions and either accept or reject
Stallman’s arguments.
Unlike Young, the initial
rejection of the ’ 260 Patent was not expressly based
on the allegedly misrepresented prior art reference.
However, by initialing the IDS, the examiner indicated
he considered the final judgment prior to reaching his
ultimate conclusion. The examiner therefore was not
required to rely on Stallman’s characterization of the
relevant prior art, but instead could accept or reject
his remarks upon independent review of the final
judgment.

88a
Based on the foregoing, the Court concludes
Xitronix has failed to show a fact issue exists as to
whether Stallman’s remarks constituted affirmative
misrepresentations of material facts.
ii. Deliberate Omission
Xitronix’s second theory for fraud on the PTO is
that Stallman had a duty to not only disclose the
final judgment and related litigation materials, but
also (1) to inform the examiner that KLA did not
appeal the final judgment in the First Lawsuit, and
(2) to affirmatively explain the effect of the final
judgment in the First Lawsuit on the then-pending
’ 260 Patent claims.
As to Xitronix’s first—somewhat ambiguous—
argument, the judgment in this case became final
when it was entered on January 31, 2011.
An
appeal of this judgment would not have automatically
stayed the Court’s holding. See Arnold v. Garlock,
Inc., 278 F.3d 426, 438–442 (5th Cir.2001) (applying a
four-part test to determine whether a discretionary
stay pending appeal should be granted). As such,
Stallman had no duty to inform the examiner of the
legal truism that the Court’s judgment was final and
3
enforceable when it was entered on January 31, 2011.
As to Xitronix’s second argument, it is undisputed
that Stallman disclosed the final judgment and all other
3

Moreover, KLA never threatened to enforce the patent at issue,
and as of July 29, 2015, there was decidedly no threat of ongoing
harm, since KLA disclaimed the relevant claims of the ’260 Patent
with the PTO. See supra Background at 4 n.1.

89a
relevant litigation materials from the First Lawsuit.
On January 31, 2011, the examiner considered
Stallman’s submission of the jury’s finding of
obviousness. IDS at 27. On February 7, 2011, the
examiner allowed the claims in the ’260 Patent over the
jury’s finding of obviousness. IDS at 19. Three days
later, Stallman submitted a RCE of the ’260 Patent and
an IDS listing the “Executed ORDER from the United
States District Court for the Western District of Texas,
Austin Division, Case No. A-08-CA-723-SS, dated
January 31, 2011, 13 pages in length” and other
litigation materials. Id. at 94. On July 12, 2013, the
examiner initialed the IDS, indicating he considered
the final judgment in the First Lawsuit, as well as
Xitronix’s litigation briefs on these issues. Id. On July
25, 2013, the examiner rejected the pending claims of
the ’260 Patent, concluding certain claims were obvious
over Rosencwaig in view of Opsal. July 25, 2013 Office
Action at 3–8.
In C.R. Bard, the defendant made a similar
argument in asserting defenses of fraud and inequitable
conduct against the plaintiff’s infringement suit. 157
F.3d at 1364. Although the plaintiff disclosed a bulk
price quotation to the PTO, the defendant argued the
plaintiff should have flagged this document and
described its significance to the examiner, “lest it be
overlooked in the volume of paper.” Id. at 1366. The
Federal Circuit disagreed, finding “these documents,
all in the prosecution history, are easily read” and
concluding there was no evidence of material
withholding or provision of false information
supporting a claim of fraud. Id.

90a
As in C.R. Bard, this is not a case where the
pertinent prior art reference is buried in a mound of
information submitted to the PTO. Rather, the IDS
identifying the final judgment listed only five items,
all of which related to the First Lawsuit. Moreover,
the examiner’s initials on the IDS “compel the
presumption ‘that the examiner did consider the
reference.’” Molins POLC v. Textron, Inc., 48 F.3d
1172, 1184 (Fed. Cir. 1995); PowerOasis, Inc. v. TMobile USA, Inc., 522 F.3d 1299, 1304 (Fed. Cir.
2008) (noting the PTO is “ a qualified government
agency presumed to have properly done its job, which
includes one or more examiners who are assumed to
have some expertise in interpreting the references
and to be familiar from their work with the level of
skill in the art and whose duty it is to issue only valid
patents.”). Xitronix has failed to proffer sufficient
evidence creating a fact issue as to whether the
examiner adequately considered the Court’s final
4
judgment in the First Lawsuit.
4

Xitronix also argues Stallman’s amendment of the ’260 Patent
claims to change the term “optimize” to “maximize” in response to
the examiner’s suggestion constitutes a fraudulent omission,
because “Stallman never pointed out or informed the examiner
that the Court had held this same language indefinite in a
judgment that became law of the case.” Resp. [#57] at 19. Five
pages of the order entered contemporaneously with the final
judgment in that case were devoted to explaining the Court’s
conclusion that some claims of the ’441 patent were invalid because
the phrase “substantially maximize the strength of the output
signal” was indefinite. Order of Jan. 31, 2011 [#210] at 5–9, the
First Lawsuit. The examiner indicated he considered the final
judgment and related litigation materials a mere two weeks before
the July 25, 2013 Office Action. Without more evidence to

91a
The examiner in this case was “ fully apprised” of
the final judgment in the First Lawsuit and “ able to
consider it and any potential effects it may have on
the patentability of the claims before issuing” the
July 25, 2013 Office Action. See Young, 492 F.3d at
1349. “The essence of the duty of disclosure is to get
relevant information before an examiner in time for
him to act on it.” Id. at 1349. That occurred here:
Stallman disclosed the final judgment to the examiner
with ample time for him to consider its relevance and
effect on the then-pending ’ 260 Patent claims.
Based on the foregoing, the Court concludes
Xitronix has failed to show a fact issue exists as to
whether Stallman’s remarks constituted deliberate
omissions.
B.

“But-For” Materiality

Xitronix argues the ‘260 Patent would not have
issued but for Stallman’s misrepresentations and
omissions.
Even assuming Stallman’s remarks
constituted affirmative misrepresentations, Xitronix
has failed to proffer any meaningful evidence
suggesting these misrepresentations qualify as
material under the “but-for” standard, especially when
the final judgment was conspicuously disclosed to the
examiner with ample time for the examiner to
consider it and either accept or reject Stallman’s
arguments regardking the state of the prior art.
overcome the presumption the examiner did in fact consider these
documents, the Court is not inclined to assume the examiner
simply missed the relevance of five pages of the order entered
contemporaneously with the final judgment.

92a
Xitronix has likewise failed to proffer any meaningful
evidence suggesting an explicit description of the
significance of the final judgment to the examiner
would have altered his ultimate decision to issue the
‘260 Patent. Although Xitronix has repeatedly argued
that the examiner was unaware of the jury verdict
and final judgment invalidating the claims at issue, the
Court suspects the examiner was in fact aware of
5
the Court’s holding but chose to ignore it. It would
not be the first time the PTO, an administrative
agency, overrode a final judgment of an Article III
court, and it will likely not be the last. Because
Stallman’s alleged misrepresentations and deliberate
omissions do not satisfy the but-for materiality
standard, they cannot serve as the predicate act for
Walker Process fraud.
Conclusion
Xitronix has failed to show a fact issue exists as
to whether Stallman made fraudulent representations
and omissions. Xitronix has further failed to show
the ’260 Patent would not have issued but for
Stallman’s alleged fraudulent representations and
omissions. That the examiner reached a different
5

Indeed, a Xitronix email dated February 8, 2011 acknowledges
that it is not altogether clear the PTO would have reconsidered its
decision and disallowed the ’260 Patent even after the Court’s
contrary ruling in the final judgment was disclosed. Mot. Summ J.
[#56-8] Ex. 7 (Xitronix Email February 8, 2011) at 3 (“[G]iven the
Examiner’s apparent non-concern for the Court’s invalidity
holdings, it is not unfathomable that the Examiner would provide a
second notice of allowance even after the Order and Judgment
were properly provided.”).

93a
conclusion than the jury regarding the claims at issue
does not give rise to Walker Process fraud. As a result,
KLA’s motion for summary judgment is GRANTED.
Accordingly,
IT IS ORDERED that Defendant KLA-Tencor
Corporation’s Motion for Summary Judgment [#56] is
GRANTED.
SIGNED this 26th day of August 2016.
/s/
SAM SPARKS
UNITED STATES DISTRICT JUDGE

